<html>
<title> - THREATS TO THE HOMELAND</title>
<body><pre>[Senate Hearing 114-487]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-487

                        THREATS TO THE HOMELAND

=======================================================================

                                HEARING

                               BFORE THE
                               
                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                            OCTOBER 8, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                     U.S. GOVERNMENT PUBLISHING OFFICE
22-380 PDF                 WASHINGTON : 2016                     
________________________________________________________________________________________        
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ff988f90bf9c8a8c8b979a938fd19c9092d1">[email&#160;protected]</a>  
        
        
        
        
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
             Elizabeth McWhorter, Professional Staff Member
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
       Harlan C. Geer, Minority Senior Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                            
                            
                            
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Tester...............................................    17
    Senator Ayotte...............................................    19
    Senator Heitkamp.............................................    23
    Senator Portman..............................................    25
    Senator Lankford.............................................    28
    Senator Baldwin..............................................    36
Prepared statements:
    Senator Johnson..............................................    41
    Senator Carper...............................................    42

                                WITNESS
                       Thursday, October 8, 2015

Hon. Jeh C. Johnson, Secretary, U.S. Department of Homeland 
  Security.......................................................     4
Hon. James B. Comey, Director, Federal Bureau of Investigation...     6
Hon. Nicholas J. Rasmussen, Director, National Counterterrorism 
  Center, Office of the Director of National Intelligence........     8

                     Alphabetical List of Witnesses

Comey, Hon. James B.:
    Testimony....................................................     6
    Prepared statement...........................................    54
Johnson. Hon. Jeh C.:
    Testimony....................................................     4
    Prepared statement...........................................    44
Rasmussen, Hon. Nicholas J.:
    Testimony....................................................     8
    Prepared statement...........................................    60

                                APPENDIX

Article submitted by Senator Johnson.............................    64
Responses to post-hearing questions submitted for the Record:
    Hon. Johnson.................................................   103
    Hon. Comey...................................................   109
    Hon. Rasmussen...............................................   113

 
                        THREATS TO THE HOMELAND

                       THURSDAY, OCTOBER 8, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Ayotte, 
Ernst, Sasse, Carper, McCaskill, Tester, Baldwin, Heitkamp, 
Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order. I want to first of all welcome our distinguished panel 
of witnesses. Thank you for your time. Thank you for your 
thoughtful testimony. Thank you for your service to this 
Nation.
    When I took over chairmanship of this Committee--what was 
it? About 10 months ago--the first thing I did is I reached out 
to Senator Carper, another person of real integrity, and I 
suggested we do something maybe a little unusual for a Senate 
Committee. We developed a mission statement. I guess that is my 
business and my manufacturing background. And so we came up 
with one that is pretty simple. It is, simply, to enhance the 
economic and national security of America.
    I think that accomplished two things: First of all, it 
starts our relationship as the Ranking Member and Chairman and 
as the Committee on an area of agreement. I mean, who could 
disagree with that? It also directed the activity of our 
Committee.
    And so the other thing we did is we established--we have 
really kind of two Committees in one, Homeland Security and 
then Governmental Affairs. But on the Homeland Security side--
and that is what this hearing is all about--we established some 
basic priorities, and not in any particular order. We 
established five: border security; cybersecurity; protecting 
our critical infrastructure, including our electrical grid; 
doing whatever we can to counter violent extremists, Islamic 
terrorists whose threat, Director, in your testimony you say is 
growing; and our fifth priority was really kind of directed at 
the Secretary, but I will include both you gentlemen as well, 
doing everything we can, committing this Committee to help you 
achieve your goal, your mission of keeping this Nation safe.
    So, again, I want to thank you for your service. It is 
exactly what this Committee is trying to do. Your testimony, 
which I have reviewed, basically follows right down what our 
list of priorities are. These threats that we face in the 
Nation are real. They are not diminishing. They are not 
receding. They are actually growing.
    And so I know you are, again, three men of integrity that 
take your duties and responsibilities very seriously. So, 
again, I thank you for that. I am certainly looking forward to 
your testimony. I want to thank the Senators that are here. I 
am looking forward to a very informative hearing.
    With that, I will turn it over to Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks. Thanks so much, Mr. Chairman.
    I want to start off by calling an audible here. I was 
thinking today, Secretary Jeh Johnson, coming down on the 
train, that in the last couple of weeks, we have been visited 
by Pope Francis up and down the east coast, all over the place, 
millions of people involved with him. We have been visited by 
the President of China, President Xi Jinping, a big entourage. 
Up in New York City, at the United Nations, I think leaders of 
over maybe 70 countries have visited our country, New York 
City, the U.N. The thing to me that is remarkable about all 
that--and I think you are going to touch on this in your 
testimony, but I want to just add a word as well. When the 
Secret Service screws up--and they have--we call them on it. 
And when people make a mistake, there needs to be 
accountability. I know you believe in that, and we do as well. 
And the Pope's visit, the visit of President Xi, the visit of 
all the 70 national leaders who came to our country, for it to 
come off without a hitch is just amazing. It is just amazing. 
And it gives me some encouragement that folks in the Secret 
Service, most of whom are hardworking and want to do the right 
thing, do the right thing every day, that better days lie 
ahead. They did not do this by themselves. They had a lot of 
help from other entities within the Department of Homeland 
Security (DHS), State and local law authorities, and others. 
But I just want to say, as we say in the Navy when somebody 
does a job well, ``Bravo Zulu.''
    Since 9/11, the most acute terrorist threats came from 
Osama bin Laden. Today bin Laden is dead. The core of al-Qaeda 
is largely dismantled.
    Unfortunately, ISIS and al-Qaeda's affiliates in Yemen and 
Syria have filled the void. The tactics they use against us and 
others have changed. The Islamic State of Iraq and Syria (ISIS) 
in particular has perfected, as we know, using social media to 
spread its online propaganda and recruit members to its ranks. 
These new tactics mean that we can no longer rely solely on 
military force to eliminate a terrorist threat.
    We must identify the root causes of why Westerners join the 
ranks of ISIS and tailor our counterterrorism tactics to meet 
this evolving challenge, and that is no easy task. To do this, 
we will have to improve our ability to counter violent 
extremism, and I know we are focused on that. I know this is a 
priority for all of our witnesses, and I commend the Secretary 
for establishing a new office at the Department that will be 
focused on countering violent extremism (CVE).
    Moreover, if we are to be truly successful in countering 
ISIS' message, among other things, we must remind the world of 
the principles and values that our country stands for. We have 
a long history of granting refuge to the war-weary. We have a 
moral obligation to continue this tradition by taking a 
reasonable share of Syrian refugees.
    The Pope reminded us as he invoked not just the Golden Rule 
but Matthew 25, ``When I was hungry, did you feed Me? When I 
was naked, did you clothe Me? When I was thirsty, did you give 
Me to drink? When I was sick and in prison, did you come to 
visit Me? When I was a stranger in your land, did you take Me 
in?'' So there is a moral imperative here. The moral imperative 
for us is not to be blind to this really awful situation that 
is faced by all these millions of Syrian refugees, but also to 
realize that there is a smart way for us to play a role. We are 
doing a huge role financially, leader among the nations of the 
world in providing aid, emergency aid to the folks that are 
displaced, and so there is sort of a tension here between how 
do we be consistent with Matthew 25, the least of these, and 
how do we do that in a way that protects us from extremists who 
might like to try to use this as an opportunity to come in and 
infiltrate our country?
    The other thing I want to mention is cybersecurity. I just 
came from a meeting with a bunch of folks over in the Capitol 
on cybersecurity, and when I finished my remarks, we took a 
little bit of time, and I said, ``Every one of you, take 15 
seconds and tell us what you think we should make as a 
priority. What should be our priority between now and, say, 
Christmas?'' And they basically had two answers: one was do not 
let the government shut down, come up with a reasonable budget 
that meets our Nation's needs in a fiscally responsible, 
sustainable way; and the other thing they said is 
cybersecurity. Cybersecurity. And we have the opportunity--we 
have worked very hard here under the leadership of our 
Chairman, a lot of folks on our Committee, to do just that, to 
make it possible the last Congress for DHS to have some of the 
tools that they need to do a better job--and you are doing a 
better job; we applaud you for that--but to also make sure that 
we focus on information sharing, do it in a smart way that 
incentivizes folks that are hackers or whatever it is share 
their information with the Federal Government and the Federal 
Government in real time--it comes through the DHS portal in 
real time, you share it with everybody else so there is no loss 
of time.
    So those are the kind of things--we are going to take 
EINSTEIN, build on EINSTEIN 1, 2, 3, EINSTEIN 3A, put it on 
steroids, and I think you are doing a lot of good things in 
your Department, Mr. Secretary, to help build on those tools.
    The last thing I want to say is this: A week ago, or 2 
weeks ago maybe, Senator Johnson and I were invited by you, 
along with Tom Ridge, former Secretary, your predecessor, a 
former Governor with whom I served as Governor, and you invited 
us to come to Shanksville, Pennsylvania. It was a day I will 
never forget, and I just want to thank you again for that. It 
reminds us again of what can happen when bad people want bad 
things to happen in our country. We have to be on guard. We 
have to be ever vigilant. But it also reminds me of the 
strength and the course of the 40 people on that plane who 
refused to go down without a fight. Refused to go down without 
a fight. And I will always remember them, be grateful to them, 
and grateful to you for reminding us on that special day of 
what service is really about and what the values of this 
country are truly about.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper. I would also 
like to thank Secretary Jeh Johnson for inviting us. The moment 
that stuck out in my mind--and you gave a great speech; 
everybody did--was when they were describing what those 
passengers did. Almost their final act was they did something 
quintessentially American: They took a vote. So I would 
recommend to anybody who has not gone to Shanksville--most 
people probably have not--to go there. There is a powerful 
panel there where we have phones where you can listen to three 
amazing voice-mail messages from the people on that plane, 
concerned far more about their loved ones they were leaving 
behind than themselves. So, again, something quintessentially 
American.
    With that, it is the tradition of this Committee to swear 
witnesses in, so if you would all rise and raise your right 
hand? Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you. God?
    Secretary Johnson. I do.
    Mr. Comey. I do.
    Mr. Rasmussen. I do.
    Chairman Johnson. Thank you.
    Our first witness is Secretary Jeh Johnson. Secretary 
Johnson is the fourth Secretary of the Department of Homeland 
Security. Prior to leading DHS, Secretary Johnson served as 
General Counsel for the Department of Defense (DOD), General 
Counsel of the Department of the Air Force, and Assistant U.S. 
Attorney for the Southern District of New York. Secretary 
Johnson.

 TESTIMONY OF THE HONORABLE JEH C. JOHNSON,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Johnson. Thank you, Mr. Chairman. As you and 
Senator Carper noted, last month the three of us attended a 
sobering ceremony in Shanksville, Pennsylvania, for the 14th 
anniversary of 9/11. Today, 14 years after 9/11, it is still a 
dangerous world.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Johnson appears in the 
Appendix on page 44.
---------------------------------------------------------------------------
    The events of 9/11 were the most prominent and devastating 
example of terrorist attacks by those who are recruited, 
trained, and directed overseas and exported to our homeland. 
The 9/11 hijackers were acting on orders from al-Qaeda's 
external operations chief, Khalid Sheikh Mohammed, who was in 
turn carrying out the direction of Osama bin Laden.
    Likewise, the attempted ``Shoe Bomber'' in December 2001, 
the attempted ``Underwear Bomber'' in December 2009, the 
attempted Times Square car bombing in May 2010, and the 
attempted ``Package Bomb'' plot in October 2010 were all 
efforts to export terrorism to the United States, and they all 
appear to have been directed by a terrorist organization 
overseas.
    The response to these types of attacks and attempted 
attacks on our homeland was and is to take the fight directly 
to the terrorist organizations at locations overseas.
    But today the global terrorist threat is now more 
decentralized, more complex, and in many respects harder to 
detect. The new reality involves the potential for smaller-
scale attacks by those who are either homegrown or home-based, 
not exported, and who are inspired by but not necessarily 
directed by a terrorist organization.
    Today it is no longer necessary for terrorist organizations 
to personally recruit, train, and direct operatives overseas 
and in secret and export them to the United States to commit a 
terrorist attack. Today, with new and skilled use of the 
Internet, terrorist organizations may publicly recruit and 
inspire individuals to conduct attacks within their own 
homelands. Al-Qaeda in the Arabian Peninsula no longer hides 
the fact that it builds bombs; it publicizes its instruction 
manual in its magazine and publicly urges people to use it.
    Today we are also concerned about foreign terrorist 
fighters who are answering public calls to leave their home 
countries in Europe and elsewhere to travel to Iraq and Syria 
and take up the extremists' fight there. Many of these 
individuals will seek to return to their home countries with 
that same extremist motive.
    The recent wave of terrorist attacks and attempted attacks 
here and in Europe reflect this new reality. The Boston 
Marathon bombing in April 2013, the attack on the war memorial 
and the parliament building in Ottawa in October 2014, the 
attack on the Charlie Hebdo headquarters in Paris in January 
2015, the attempted attack in Garland City, Texas, in May 2015, 
and the attack that killed five U.S. servicemembers in 
Chattanooga, Tennessee in July 2015--what does this recent wave 
of attacks and attempted attacks have in common? They were all 
conducted by homegrown or home-based actors, and they all 
appear to have been inspired, and not directed by, al-Qaeda or 
the Islamic State of Iraq and the Levant (ISIL).
    We are concerned about domestic terrorism in the form of a 
``lone wolf,'' which can include various aspects of domestic 
terrorism such as right-wing extremism as well. We devote 
substantial efforts to the study and understanding of these 
threats and will continue to further our understanding of the 
underpinnings of terrorist threats of all forms.
    What we are doing about it I hope to discuss in further 
detail during the Q&A. It is set forth in my prepared remarks, 
and I will not elaborate that here. What I will conclude by 
saying is basically two points:
    One, I applaud both the House and the Senate for the good 
work that has been done on cybersecurity legislation. I applaud 
the fact that it has been bipartisan. As Senator Carper noted, 
I believe that there is an urgent need for help from this 
Congress in the area of cybersecurity. The need for 
cybersecurity legislation has, in my judgment, been amply 
demonstrated just over the last 12 months with some of the 
things we have seen. So I hope that the House and Senate can 
come together, pass legislation, go to conference, and have 
that legislation become law.
    The last thing I will say is that homeland security is part 
of national security. It is the front line of national 
security. Our job is much more difficult to protect the 
American people if Congress does not repeal sequestration. We 
simply cannot deliver for the American people all of the 
homeland security that they need and want if we have to work 
with a sequestered budget. So I urge Congress, in as strong 
terms as I can, to consider repealing sequestration.
    Thank you.
    Chairman Johnson. Thank you, Secretary Johnson.
    I will say I continue to press leadership to bring 
cybersecurity onto the floor of the Senate. I think we have 
that commitment. I think you will see that hopefully within the 
next couple weeks. And the success of that will largely depend 
on us all working together, as we have in the past. It is 
amazing what you can accomplish if you concentrate on what you 
agree on, the things that unite us as opposed to exploit our 
division. So cybersecurity is certainly one of those things 
that we do agree on, and I am actually quite hopeful of it, 
again, with your help and with Senator Carper's and really 
everybody on this Committee.
    Our next witness is Director James Comey. Director Comey is 
the Director of the Federal Bureau of Investigation (FBI). 
Director Comey has also served as U.S. Attorney for the 
Southern District of New York, Deputy Attorney General (AG) for 
the Department of Justice (DOJ), and General Counsel for 
organizations in the private sector. Director Comey.

TESTIMONY OF THE HONORABLE JAMES B. COMEY,\1\ DIRECTOR, FEDERAL 
      BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Comey. Thank you, Chairman Johnson, Senator Carper. 
Thank you for this opportunity to appear before the Committee, 
especially with my two friends and colleagues here with whom we 
do so much work to try and protect the American people. I am 
grateful for their partnership.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Comey appears in the Appendix on 
page 54.
---------------------------------------------------------------------------
    I am not going to repeat what is in the written statement, 
which we have submitted for the record, and I think Jeh has 
captured well the challenge we face. His description of a new 
reality is dead on, and I simply want to amplify it because it 
bears stressing. A lot of us are still thinking about the 
terrorism threat through the paradigm of what I call ``your 
parents al-Qaeda.'' And I think it is very important that the 
American people understand how things have changed, and so I 
just want to spend a brief minute on that.
    ISIL has broken the core al-Qaeda paradigm by using social 
media to broadcast a twin-pronged call to thousands and 
thousands of followers around the world, including many people 
in the United States. They send two messages:
    First, come to the caliphate and participate in the final 
battle between good and evil on God's side and find meaning in 
your life.
    Second, if you cannot travel, kill where you are. Kill 
anyone. But especially if you could kill people in military 
uniform or law enforcement uniform and video it, that would be 
best of all.
    And it is a message that comes in an entirely new way, 
because it buzzes in the pockets of troubled souls, unmoored 
people all over this country all day long. Twitter is worth a 
lot of money because it is a great way to sell shoes or books 
or movies. It is a great way to crowdsource terrorism. And so 
ISIL started investing in this in the middle of 2014, and 
earlier this year we saw the payoff on the investment in 
hundreds of investigations in all 50 States of people who are 
on some path between consuming this poison and responding to it 
by either traveling to the so-called caliphate or killing where 
they are.
    And so the challenge we face, the folks at this table, is 
finding those needles in a nationwide haystack and assessing 
where are they on that spectrum between consuming poison to 
acting on poison and disrupting them before they act.
    And it gets harder still. It is not just a nationwide 
haystack where we are looking for needles. But what ISIL has 
been doing over the last year is when they find a live one, 
someone who might be willing to kill where they are, they will 
move them off of Twitter where, with lawful process, we can see 
the communications, and move them to an end-to-end mobile 
message app that is end-to-end encrypted. So the needle that we 
may have found disappears on us once it becomes most dangerous. 
And with a court order--which is the way we collect the content 
of communications in the United States; we get a court order. 
We cannot see what is being said between that ISIL recruiter 
and someone who would kill where they are.
    This is a big problem. It is an illustration of the problem 
that we call ``Going Dark.'' It illustrates to people the 
conflict that we are experiencing, this country, between two 
values we all hold dear: safety and security on the Internet, 
right? I can assure you Secretary Jeh Johnson and I are big 
fans of strong encryption. It protects what matters to us most. 
We must use strong encryption. But the other value that is in 
conflict is public safety. We must protect the people of the 
United States. We must find those needs and stop them before 
they kill. We must find child predators, we must find 
kidnappers, we must find drug dealers. Those two values we hold 
dear are crashing into each other.
    I do not know what the answer is, but I keep telling folks 
the FBI is not an alien force imposed on America from Mars. We 
belong to the American people. Our tools are only those tools 
the American people give us through you. And I think my job is 
to tell folks when one of the tools you are counting on us to 
use to protect you is not working so much anymore, we have to 
talk about that.
    And so there has been a lot of conversation, very 
productive. The administration has decided not to seek a 
legislative remedy now, but that it makes sense to continue the 
conversations that we are having that are very productive. 
Because here is the thing: people in industry are good folks. 
They share those same values, and they are working with us to 
figure out how could we solve this problem. And so we are 
talking to industry, we are talking to State and local law 
enforcement, we are talking to our foreign partners, because 
everybody who cares about these two values has to be involved 
in this conversation.
    There is no clear answer. An important start is to remove 
the venom and understand we share values. We care about 
protecting people. We care about safety and security on the 
Internet. How do we maximize both values? It is a really hard 
thing. But I think America does hard, especially when it 
implicates our most fundamental values.
    So I thank the Members of this Committee for their 
engagement on this issue and my partners here at the table, and 
we will continue the conversation with the American people. 
Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Director.
    Our next witness is Director Nicholas Rasmussen. Director 
Rasmussen is the Director of the National Counterterrorism 
Center (NCTC). Director Rasmussen previously served as the 
Deputy Director of NCTC, in various functions on the National 
Security Council staff, and in several key positions within the 
Department of State. Director Rasmussen.

TESTIMONY OF THE HONORABLE NICHOLAS J. RASMUSSEN,\1\ DIRECTOR, 
  NATIONAL COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF 
                     NATIONAL INTELLIGENCE

    Mr. Rasmussen. Thank you, Mr. Chairman, thank you, Senator 
Carper. Like Secretary Johnson and Director Comey, I welcome 
the opportunity today to have a good, thoughtful conversation 
with the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rasmussen appears in the Appendix 
on page 60.
---------------------------------------------------------------------------
    Before getting into the threat picture in a little greater 
detail, I first want to stress just how well and how closely 
aligned we at NCTC are with my colleagues at DHS and FBI. We 
see the threat environment the same way. We share information. 
We collaborate in a very intense way every day to produce 
analysis to support our operations.
    I will start with the good news. From an analytic 
perspective, the chances of a spectacular large-scale attack 
here in the homeland carried out by an overseas terrorist 
group, along the lines of what my two colleagues described, 
that has been substantially reduced over the last several 
years, and we have collectively achieved that outcome through 
aggressive CT action in South Asia and other places around the 
world, but also through the creation of a robust homeland 
security and counterterrorism infrastructure here in the 
homeland that we have developed as a community over the last 
decade.
    And while we can look with some degree of satisfaction at 
the work done to reduce that threat of a large-scale mass 
casualty attack, there is still quite a bit to be concerned 
about in the threat landscape, as Secretary Jeh Johnson and 
Director James Comey mentioned, and that landscape is in some 
ways more challenging than ever.
    It is also clear that the terrorists' operating paradigm 
has shifted, and it has shifted in ways that are proving 
particularly challenging as we try to identify and disrupt 
threats to the homeland. Today there are more threats 
originating in more places and involving a more diffuse and 
disparate set of individuals than at any time previously. And 
let me spell out what I mean by that and highlight a couple of 
areas of greatest focus and concern. And as you would expect, I 
will start with ISIL, the Islamic State in Iraq and the Levant.
    In our judgment, ISIL has overtaken al-Qaeda as the leader 
of the global violent extremist movement, and the group does 
view itself as being in conflict with the West, and that 
conflict is being played out not just in Syria and Iraq now but 
also in a number of other locations around the world where ISIL 
has declared itself to have established a province. Those 
places include Algeria, Libya, Egypt, Yemen, Saudi Arabia, 
Afghanistan, Nigeria, the Caucusus Region, and even potentially 
in Southeast Asia as well--Indonesia and perhaps the 
Philippines. And that aggressive growth and expansionist agenda 
has implications for our homeland threat picture, and there are 
three especially concerning features of ISIL as a terrorist 
group that make me reach this conclusion.
    The first is ISIL's access to extensive resources, and that 
can be measured in terms of manpower, military materiel, and, 
of course, money.
    The second concerning feature of ISIL is the territorial 
control that ISIL exercises in large portions of Iraq and Syria 
as well as in some of those province areas that I mentioned a 
few minutes ago.
    And third is their access to a large pool of individuals 
from Western countries, both those who have traveled to Iraq 
and Syria and those who have remained in their home countries. 
And when we look as intelligence professionals for indicators 
of external operations capability in ISIL that could threaten 
our homeland, these are the key features that we would expect 
to see, and that is of concern.
    In his testimony, in his published testimony, Secretary Jeh 
Johnson alluded to how we are coming to view the threat from 
ISIL, and especially the homeland piece of that threat. We are 
seeing that threat as having ISIL involved in some ways along a 
spectrum of activity. At one end of that spectrum we see 
isolated individuals, as Director Comey mentioned, who draw 
inspiration from ISIL's prolific, spectacular use of 
sophisticated social media, and that is true even if ISIL is 
not actually directing or guiding their actions. And at the 
other end of the spectrum, we assess that there are, in fact, 
individuals who may, in fact, receive direct guidance and 
direction from ISIL members, including people who are leaders 
in the ISIL organization. This spectrum is very difficult for 
us to penetrate and understand because of the collection 
difficulties that Director Comey pointed to a minute ago.
    But more often than not, we see that individuals inside the 
homeland actually are operating somewhere between the two ends 
of that spectrum, and that creates a fluid picture that makes 
it even more challenging for us to get inside of.
    Beyond our intensive focus on ISIL and the threat it poses 
to the homeland, though, you would certainly expect that we are 
continuing to devote substantial attention to al-Qaeda, its 
affiliates and nodes around the world. And despite the 
unrelenting media attention that is focused on ISIL in current 
days, in no respect at all, would we downgrade our level of 
effort and attention on the al-Qaeda-related set of threats 
that we face as a Nation.
    And when I am asked often to identify what my No. 1 
terrorism concern is, I most often decline to answer because I 
would not want to suggest that our focus on ISIL comes at the 
expense of efforts focused on al-Qaeda and other terrorist 
organizations.
    Specifically with al-Qaeda, we are watching closely for 
signs that their attack capability is being restored ahead of 
the drawdown in Afghanistan. And while al-Qaeda's core leaders 
have certainly been degraded, we continue to track and 
investigate any indications that core al-Qaeda is engaged in 
plotting activity aimed at the homeland. We know that remains 
an ambition and their intent, so we stay on it constantly.
    In both their statements for the record, both Director 
Comey and Secretary Johnson highlighted al-Qaeda in the Arabian 
Peninsula (AQAP), and that is for good reason. The threat from 
AQAP remains at the top of our list of analytic priorities 
given the group's unrelenting focus on targeting U.S. 
interests, including potentially the homeland and potentially 
the aviation sector. Our work in this area is made all the more 
complicated by the difficult situation in Yemen at this time.
    Beyond Yemen, we are also watching al-Qaeda affiliate 
networks and individuals in Syria who may be looking to carry 
out external operations attacks. Our efforts to disrupt al-
Qaeda plotting emanating from Syria have certainly been 
successful in the last several months, and some of the most 
important figures of concern have been taken off the map, but 
there is clearly more to be done in this regard. And in the 
meantime, we are looking very closely for any signs of 
intelligence that would give us a hint as to what they are 
planning.
    The third and final area of priority focus is the growing 
use of simple, opportunity-driven attacks by homegrown violent 
extremists (HVEs).'' If you go back to 2009, we were seeing on 
average less than two or three of these incidents a year. By 
last year, the number rose to a dozen, and to date this year, 
that number has already doubled. And, of course, we are not all 
the way through the year yet. And while it is difficult for us 
to put numbers on the precise population of homegrown violent 
extremists here in the United States, there is no question in 
my mind that this population has increased in size dramatically 
over the last 18 months. And you can certainly say that ISIL 
has injected new energy and life into the population of 
homegrown violent extremists.
    ISIL for its part knows that it can have an impact, as the 
Director said, by motivating individuals in their own locations 
to act in support of ISIL by carrying out individual attacks, 
even on a relatively modest scale.
    So as I conclude, I would just like to say that we stress 
again we continue to work to detect, defeat, and disrupt the 
full spectrum of threats we face as a country, focused heavily 
on ISIL and the set of associated threats, but just as 
ardently, just as committedly, the focus remains on al-Qaeda 
and all of its affiliates.
    I will stop there, Mr. Chairman.
    Chairman Johnson. Thank you, Director Rasmussen.
    Obviously, the purpose of this hearing is to highlight 
these threats so that as a public we face this new reality, as 
the Director and Secretary both mentioned. We obviously want to 
be very 
concerned about anything classified, but it is extremely 
important--Secretary Johnson, in your testimony you said, and 
let me repeat, ``But today the global terrorist threat is more 
decentralized, more complex, and in many respects harder to 
detect.''
    Director Rasmussen, your testimony: ``The array of 
extremist actors around the globe is broader, wider, and deeper 
than . . . at any time since 9/11.''
    Director Comey, we had a hearing called ``Jihad 2.0'' 
really exploring and highlighting the problem of and the 
sophistication with which ISIL is utilizing social media. In 
that hearing, we had testimony that said that there were at the 
time somewhere between 46,000 and 90,000 overt ISIS support 
accounts.
    Now, I know Twitter has been taking some of those accounts 
down, but they just basically pop up with another name and 
another handle.
    You talked about the social media, those individuals 
following ISIS there, then being moved over into encrypted 
accounts. Can you give us some sense of the numbers of people 
that you are concerned about that have been engaged in social 
media? And I do want to talk about your inability to track, but 
how much information do we have just in terms of the number of 
people that have been inspired through the social media, the 
open media, where we can track into encrypted accounts?
    Mr. Comey. Probably the best number I can give in an open 
setting is dozens.
    Chairman Johnson. OK. I would also, as long as I am talking 
to you--and I know Secretary Johnson has also gone into the 
communities to try and engage the communities. And this is, I 
do not think, classified. I remember hearing in a briefing that 
the members of the communities themselves think that we have a 
complete handle on this, that we know who among their midst 
might be being inspired by ISIS, which that is completely 
false, correct? I mean, would you agree that that is sort of an 
assessment?
    Mr. Comey. I do. First of all, I agree with you, I think 
Jeh has been a leader on this, getting out there and talking to 
the good folks, no matter what their background, do not want 
their sons and daughters either going to caliphate, which is a 
nightmare, and dying there or killing people and surrendering 
their life to a long prison sentence here. The answer is it is 
a huge challenge because good people do what good people do, 
which is we tend to write an innocent narrative over troubling 
facts, so the hair stands up on the back of your neck, but you 
say, ``Well, I must be misunderstanding,'' or ``He must just be 
having a bad day,'' or ``I must not have heard him right.'' And 
what we are trying to get folks to do is, when the hair stands 
up on the back of your neck, just tell us. Tell any police 
officer, any deputy sheriff. We will check it out, in secret so 
no one gets smeared, and if it is nothing, it is nothing. But 
if it is something, you may have just saved your child's life 
and the life of innocent people. But given human nature, that 
is an enormous challenge for us.
    Chairman Johnson. There was a New York Times article that 
really described an FBI informant operative really having 
multiple, I think hundreds of conversations with the terrorist 
from Garland, Texas, and the FBI spent quite a few, I think 
hundreds of thousands of dollars for that FBI operative. Talk 
to me about the effectiveness of that. I am just putting myself 
in the position of a parent whose son, maybe a 20-year-old kid, 
is being engaged by the FBI, talked about different--the 
caliphate and all that type of thing, and then all of a sudden 
the FBI swoops in and says, ``Did you ever talk about traveling 
over to Syria?'' And the person is brought up on charges and 
convicted.
    I think that is a serious concern about is that the best 
way to engage a community. Based on that, have we rethought 
that at all?
    Mr. Comey. Well, we have not rethought--we all agree, I 
think, that it is very important that we try to understand 
where are folks from this consuming to acting, make an 
assessment, and then take it very seriously, especially if they 
are moving toward acts of violence. And so we are going to 
continue that work, but knowing that we have to do that work I 
hope should motivate the good parents of the United States. No 
one wants their children to go die in the nightmare that is the 
so-called caliphate or have to be locked up because they 
violated the antiterrorism laws of the United States. And so it 
is just another reason why good parents need to talk to us, 
need to know what their kids are doing.
    One of the challenges we all face as parents--I have five 
children--is a sense that you want to know where your child is 
going physically, you want to know if your kid is going to hang 
out at the mall, but you do not have such a sense of where they 
are online, which is the entire world. And so what we keep 
saying to people is when you see things that are troubling, 
help us engage and keep kids from getting to a place where they 
have to be locked up.
    We have done a lot of work, the three organizations at this 
table, to try and build capabilities--we call them ``off 
ramps''--so that if we can intervene early when a parent tells 
us about a kid, we can get that kid the help they need--
sometimes it is substance abuse, sometimes it is counseling, 
sometimes it is religious guidance--so they do not have to 
become somebody we have to lock up. And so that is an ongoing 
conversation with the families of the United States. And we are 
making progress, but it is something we have to continue to 
push on.
    Chairman Johnson. Secretary Johnson, again, you have been a 
real leader and engaged in the communities, and I applaud you 
for that. And, again, I am a little concerned about numbers, 
but I will say I am surprised if it is only a couple dozen 
people who have been inspired on social media, then moved to 
encrypted accounts. Talk to me about your engagement with 
communities, but also about your assessment of that number.
    Secretary Johnson. Well, first of all, by the nature of the 
existing threat we face, we are concerned about a lot of people 
who self-radicalize, essentially, by reading things on social 
media without necessarily direct communications between 
somebody in the homeland and somebody overseas. And what we 
know suggests that before somebody in that situation turns to 
an act of violence, there are very few people who are in a 
position to know about it--the parents, perhaps a brother or a 
spouse, somebody that is living in the immediate home with that 
person. And so by the nature of the problem, we do not often 
have advance opportunity to interdict, to arrest, to prosecute, 
which is why I think the CVE engagements are so important, to 
build bridges, lower barriers of suspicion, and encourage 
people in communities, this is your homeland, too, help us help 
you with public safety.
    And so we have been out there doing this. I think we have 
seen a lot of good reaction, some criticism to our efforts, 
which I think means we know that our efforts are having an 
effect, but just heightening awareness and asking people for 
their help is fundamental given the nature of the current 
threat we have.
    Chairman Johnson. Just real quick with Director Rasmussen, 
Director Comey talked about the balance, the very delicate 
balance between civil liberties and security, and we are always 
concerned about that. You talked about the spectrum. Where are 
we today in that spectrum, in that fulcrum point between civil 
liberties and security? And where do we really need to be?
    Mr. Rasmussen. Boy, that is an incredibly complex question, 
and I am not sure there is a particular point that is a resting 
point on that spectrum. As Director Comey suggested, we know we 
are facing significant new challenges in the way we have 
traditionally collected intelligence to get at our terrorist 
adversaries. Simply put, the kinds of insight we used to have 
into some of the more complex al-Qaeda-linked plotting is just 
not available to us right now. And so, naturally, in that 
environment we are going to exhaust every opportunity we can--
every avenue we can think of to try to develop new collection 
opportunities. Those will, of course, have to be balanced 
against all of the factors you describe, Mr. Chairman, and that 
is an ongoing process, which is why I do not think we are at 
some steady equilibrium along a spectrum, I think as the 
Director said, is also going to be a subject of an ongoing 
conservation with the private sector and the parts of industry 
that hold critical nodes of communication. And, unfortunately, 
many of these terrorist actors are exercising their craft on 
these platforms.
    I think the good news is that we have opened a 
conversation. There is a lot of ground to be covered in that 
conversation without the Federal Government dictating solutions 
or, as the Director said, choosing a legislative framework at 
this particular point. But we are at the front end of that 
conversation, and it has to play out over the period ahead.
    Chairman Johnson. I recognize it is complex. I did not 
expect a definitive answer, and your answer is exactly right. 
This is a conversation, this is a discussion we must have. It 
has to be an honest conversation, and we have to be looking at 
the new reality, the threats we are facing. They are not on the 
run. They are growing, and we need to be concerned about that. 
And we have to be discussing this in a very serious and honest 
fashion. Senator Carper.
    Senator Carper. Let me preface my questions by again just 
emphasizing how much we appreciate your commitment to our 
country, your commitment to defending us, and the hard work 
that you and your team, the teams that you lead, are doing on 
our behalf.
    As my colleagues know, I like to talk about what is the 
secret to a long marriage between two people, and the best 
answer I ever heard: Communicate and compromise. I would add a 
third C to that: collaborate. And when I look at the three of 
you, I see the three C's--communicate, compromise, 
collaborate--embodied. So keep it up and thank you. You set a 
good example for us.
    Our Chairman and I and others on this Committee like to 
focus not just on addressing symptoms of problems. We are 
pretty good at that as a Nation. We do not always look at the 
underlying cause or the root cause. Senator Johnson and I are 
going to lead a Congressional Delegation (CODEL). I think 
Senator Peters is going to go down with us, I think Senator 
Heitkamp is going down with us, and maybe a couple of House 
colleagues are going to go down with uninsured, and we are 
going to go to Honduras, maybe Guatemala, and try to get a 
better handle on why tens of thousands of people would risk 
life and limb to go 1,500 miles through a terrible situation of 
getting through Mexico to get to our border to face an 
uncertain future. We have spent $1 trillion in the last decade 
or so trying to figure out how to stop people from getting in. 
We have spent less than 1 percent of that to try to figure out 
what the root causes are that are compelling people to come. So 
I am big root cause guy, and when I look at the cyber attacks 
that have been directed at our country in recent years, one of 
them is the Chinese. And they know what is going on. They 
pretend that they have not, but they know full well that there 
are entities within their country that are trying to steal our 
intellectual seed corn to be able to get economic shortcuts to 
prosperity at our expense, and we just pretty much underwrite 
the costs for them.
    I just want to commend Secretary Johnson and everybody else 
that was involved, the President and others that were involved 
in convincing the Chinese that it was time to change their 
ways, to mend their ways. And I am not sure what the prospects 
are for actually succeeding in this, but the agreement that has 
been struck is a very, very encouraging sign. I really did not 
think we would be able to get that, so I applaud you.
    There is a mechanism in place, Secretary Johnson, going 
forth, and I think it involves you, I think it involves the 
Attorney General, to build on what has been agreed to, to make 
sure that, it is not just that they are going to say this and 
do something else, but how do we make sure they do what they 
have committed to do and then for us to build on that.
    Would you just talk a minute about that, please?
    Secretary Johnson. Yes. When the Chinese were here, both 
for the President's visit and about 2 weeks before, we had very 
frank conversations about cybersecurity, about cyber norms that 
we believe nations should embrace, and there are a lot of good 
things on paper. The question now becomes whether the Chinese 
will do what they agreed to do on paper. And so the way forward 
will be putting them to the task of having ministerial-level 
conversations with us on a regular basis. We hope to have one 
before the end of this year, and we are now arranging dates to 
do that. So time will tell about whether or not the Chinese 
will live up to what they agreed to do.
    I am pleased with what is on the paper, but actions will 
speak louder than words in this context.
    Senator Carper. All right. Thank you. I alluded earlier to 
actually the Pope's message, Pope Francis' message to us. When 
he was here, he spoke to our Joint Session of Congress a week 
or two ago, and his focus was on the Golden Rule and on Matthew 
25, the least of these. And one of the provisions in Matthew 25 
talks about, ``Where were you when I was a stranger in your 
land? Did you welcome me in?'' And we have, I think, a moral 
obligation to do that where we can and to look out for those 
that are in terrible situations. We have this need to make sure 
that as those 10,000 Syrian refugees come to agree that they 
are not embedded by a number of folks from ISIS who wish us 
harm.
    I would just like for us to talk about what we can do, 
ought to do, will do, to the extent you can in a public forum, 
to make sure that those threats are anticipated and 
appropriately addressed. And that could be for a number of 
you--Director Comey, Secretary Johnson, Nick.
    Secretary Johnson. Well, just to highlight one thing in 
particular, given the nature of how the terrorist threat has 
evolved, I think it is incumbent upon us at the Federal level 
to share as much intelligence as we can with State and local 
law enforcement. I think Jim's people do an excellent job at 
the Federal level of detecting, investigating, and interdicting 
terrorist threats almost on a weekly, if not daily basis. And I 
have been constantly impressed with how their methods have 
evolved to match the threat. But things like the Garland City, 
Texas, attempted attack highlight that it is also critical that 
we get information out to State and local law enforcement as 
well so that they are aware of what we are seeing.
    Senator Carper. Mr. Comey.
    Mr. Comey. With respect to the potential of Syrian asylees 
coming to the United States, it is----
    Senator Carper. There is a real tension here, as you know. 
We are trying to do the right thing, and at the same time, we 
are trying to do the other right thing.
    Mr. Comey. It is something that we have learned how to do 
better, screening people. The experience we had, we did not do 
it as well as we should have in the mid-2000s, the first 
decade, with Iraqi refugees. So we had to go back and redo it. 
We have learned a lot from that, so I think we are more 
effective as a law enforcement, intelligence, national security 
community at screening folks.
    That said, there is no such thing as a no-risk enterprise, 
and there are deficits that we face. I am not comfortable 
talking about them in an open setting.
    Senator Carper. I understand.
    Mr. Comey. I do not want the bad guys to know what we might 
not be able to----
    Senator Carper. I understand.
    Mr. Comey. But that is how I would sum it up.
    Senator Carper. All right. Fine. Thank you.
    Secretary Johnson. Senator, if I could?
    Senator Carper. Please, yes.
    Secretary Johnson. With regard to Syrian refugees in 
particular, I agree totally with what Jim said. We should do 
the right thing by accepting more, but we have to be careful in 
doing it. We have improved the process for vetting from a 
security standpoint the refugees who are admitted in this 
country, and I am committed to making sure that we maintain 
that process.
    Senator Carper. Good. Thanks.
    Director Comey, you mentioned encryption, back-door ways to 
make sure we are trying to protect against terrible crime and 
criminals, and you mentioned conversations are under way. Can 
you tell us just a little bit more about that? Because I think 
this is real important, and I am sure you do, too.
    Mr. Comey. We are having increasingly productive, frank 
conversations with industry because I think in part the ISIL 
threat focused everybody's minds and understood that we are 
just not making this up, that there really is a conflict 
between values we all care about, safety and security and 
public safety. And so industry is not a monolith. There are 
lots of different services and products being provided, but 
what I have found is they are all people who care about the 
safety of America and also care about privacy and civil 
liberties. And so we are talking to each other about how could 
we accommodate both of those values. Again, this is about how 
could we get you in a position to comply with a court order. We 
are not looking for volunteers. We are not looking to sneak in 
anywhere. But how could we get to a place, technologically, 
legally, where we could get you to comply with court orders? So 
that is with the companies. But also really important 
conversations with our allies around the world who care both 
about the same values, the rule of law, and care about safety, 
public safety. And so we are having good conversations with a 
lot of our European allies, but how could we together come up 
with a framework that would make sense, embrace the rule of 
law, and maximize both of those values.
    And the last group, with State and local law enforcement. 
This is actually a problem that affects State and local law 
enforcement most of all, because child abuse cases, domestic 
violence cases, car crash cases, all of those things that cops 
and sheriffs and DAs have to work are affected by the fact that 
encryption has gone from an option available to sophisticated 
people, which has always been, to a default. And so cops and 
sheriffs trying to figure out where this child went are 
increasingly encountering devices they cannot open with a 
search warrant. And so we are engaging them in the 
conversation, too, because this affects every community in the 
United States.
    There is no simple answer, that is what I meant when I said 
the conversations are ongoing, and they have gotten healthier, 
because people have stripped out a lot of the venom. Folks are 
not questioning as much as they used to each other's motives 
because we are in a place where we recognize we care about the 
same stuff.
    Senator Carper. I will close with this quick note, if I 
can. We are always asking Secretary Johnson what we can do to 
help. He is always good to give us a to-do list. I would say to 
you this is an important issue, and if there are some things 
that we can be doing to help on the legislative side, please 
let us know.
    Chairman Johnson. Thank you, Senator Carper.
    By the way, a quick comment or suggestion on the 
prioritization of the Syrian refugees we do let into this 
country. If we set as a No. 1 criteria family members and we 
can do DNA testing, that would certainly be, I think, helpful. 
Plus Syrian families, Syrian American families can also be 
financially responsible. So I think it is setting criteria for 
prioritization of who we actually let in, and I think it would 
be helpful. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman, and thank you all 
for your sobering testimony.
    I am going to start with you, Director Comey--and the 
Ranking Member touched on this--about folks being on Twitter 
and then they go dark. And you talked about technology and 
legality, and you talked about working with the private sector 
when you responded to the Ranking Member.
    The question I have is: Do you have adequate resources--
this could go across the board, by the way, because I know you 
work on it, too, Jeh. But do you have adequate resources, do 
you have adequate manpower to be able to technologically stay 
ahead of these guys?
    Mr. Comey. A tentative yes, and here is why it is a 
tentative yes. The answer yes depends upon a number of things: 
the FBI's ability to hire out of the hole we were left with 
from the impact of the last sequestration, almost 3,000 
vacancies. We are climbing out of that hole now. That is the 
first thing.
    And the second thing is I do not know whether what we faced 
this summer is the new normal; that is, this summer we were 
following dozens and dozens of people all over the United 
States 
24/7, and that is only easy on TV. And so to do that, we had to 
surge resources from our criminal cases to make sure we cover 
this so these folks did not go kill people, and we disrupted a 
lot of those people. And our great colleagues in the military 
have made some progress at degrading some of the capabilities 
of ISIL in their so-called caliphate. So I do not know whether 
what we experienced this summer will be the new normal. If it 
is, then I will have a resource mismatch, and I will be prudent 
about coming back and asking.
    Senator Tester. OK. Jeh, is your agency in the same boat?
    Secretary Johnson. Yes, I agree with everything Jim said, 
and I also agree with his assessment of the ``Going Dark'' 
problem. There are demonstrable cases where we have seen that 
our ability to track individuals of suspicion is hampered by 
the means of their communication.
    Senator Tester. And so I would just ask, can technology 
take that darkness to light?
    Secretary Johnson. With help from the private sector, yes.
    Senator Tester. OK. Collaboration and communication has 
been talked about. I think it was you, Nick, who talked about 
across the board you guys collaborate and communicate well. How 
is it working with State and local law enforcement? Are they 
brought up to speed? Are you concerned about information 
getting out that you do not want out so they are not brought up 
to speed? Give me the lay of the landscape. I do not care which 
one you want to talk about.
    Mr. Comey. I think it is in a very good place, and I think 
they would be the best people to check with on this. But I 
think our Joint Terrorism Task Forces (JTTF), our Fusion 
Centers around the country are connected in ways they were not 
before, and chiefs and sheriffs understand that the new 
reality, as Jeh said, is not a Washington-focused or New York-
focused. These troubled souls, these unmoored people, are 
everywhere, and so they get that and they are engaged. And I 
think they would tell you that they are hearing earlier and 
more completely from all of us at this table what they need to 
know.
    Senator Tester. So the channels are there to flow 
information down and back up.
    Mr. Comey. Yes.
    Senator Tester. OK. The Ranking Member also talked about, 
he said it takes more than military to reduce the terrorist 
threats. Would you guys agree with that statement?
    Secretary Johnson. Yes, absolutely.
    Senator Tester. And your role in reducing the domestic 
threat, that is your primary responsibility, correct?
    Secretary Johnson. Yes, sir.
    Senator Tester. OK. So as Congress wraps up this year--and 
any one of you guys can answer this, but it would probably be 
you, Jeh--what would you prioritize Congress needs to do, two 
or three things, for you to be able to do your job----
    Secretary Johnson. Repeal sequestration----
    Senator Tester [continuing]. That we need to get done soon.
    Secretary Johnson. Repeal sequestration so that I can do 
all the things that the American public needs us to do for 
homeland security, whether it is cybersecurity, border 
security, aviation security. It is going to be very difficult 
to meet all of those priorities if we have to work with a 
sequestered budget.
    Senator Tester. Get rid of sequestration. Anything else?
    Secretary Johnson. That is one, two, and three.
    Senator Tester. That is one, two, and three. OK. Has there 
been any comparison with terrorist actions in this country and 
other countries in the world? Are we more targeted? Is it the 
same threats around the world? Go ahead, Nick.
    Mr. Rasmussen. The phenomenon that we have all described, 
these unmoored, untethered actors who potentially are 
connecting to ISIL by consuming their media and maybe seeking 
to act on their own, we have our concerning population of those 
individuals, as the Director described, as we have all 
described. Our European partners have a much larger population 
of those potential actors, several of them quite a bit larger 
than ours. And so by relative comparisons on scale, I think we 
are in a sense better off than some of our close European 
partners.
    That by no means makes me feel sanguine about our own 
efforts and the level of resources, as the Director indicated, 
to be able to follow and track all of the individuals who may 
turn out to be a concern from a terrorism perspective. But our 
European partners are in some ways are even more challenged 
because they bring to the table often considerably less 
capability than we do, not just in their FBI equivalent or 
their homeland security equivalent, their ministry of interior 
or their domestic security service, but their whole 
counterterrorism and homeland security enterprise is often 
considerably less well developed than ours, and they are often 
looking to us for help in trying to help figure that out.
    Senator Tester. And is that because they choose not to fund 
it?
    Mr. Rasmussen. Again, I think it is the rapid emergence of 
this new variant of the threat, I think they became--as would 
not be surprising--comfortable with their capability to deal 
with the kind of al-Qaeda threat and al-Qaeda affiliates as 
they understood it. The threat has changed in a pretty dramatic 
way as we have tried to outline, and it creates a new set of 
challenges, some of which are particularly resource intensive 
for law enforcement and intelligence organizations, especially 
in smaller countries.
    Senator Tester. This is not within your purview, but is 
there anybody--it seems to me what is going on in the Middle 
East now--and it extends far beyond that--is crazier than I 
have ever seen in my lifetime, and I do not think that is an 
imagination. I think there is just stuff going on that makes no 
sense. Is 
there--at least from my perspective it makes no sense. Is there 
anybody that is trying to find the root causes of why 
everything seems to be going upside down? You guys are dealing 
with the threat on this end. Is there anybody that is trying to 
ask the questions on why these guys are so effective? I know it 
is communication, the Internet and all that, but there has--
maybe there does not. Is there a reason for this stuff? Is 
there something that is going on in the world that we could 
have some impacts on that would delegitimize these folks?
    Secretary Johnson. We could have a whole hearing on this. 
And you are right, it is not directly within the purview of the 
three of us. My immediate reaction to your question is that 
there needs to be more of a global message and a global theme 
to counter the ISIL message to the Muslim world about what the 
Islamic State supposedly represents. And so my judgment is that 
in order to try to counter what we are seeing, the volatility 
that we are seeing in the Middle East, particularly Iraq and 
Syria, is a more amplified global message about how in the 
Muslim world in particular their efforts and their energy 
should be directed toward younger people in a positive, 
constructive way.
    Senator Tester. Thank you all for the jobs you do.
    Chairman Johnson. Thank you, Senator Tester.
    By the way, Secretary Johnson, I agree with you, 
sequestration was a really stupid idea. But there is a way of 
solving this, and it is called ``prioritization of spending.'' 
And I completely agree, defense of this Nation, defense of this 
homeland is a top priority, and we ought to treat it that 
way.Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman. I want to thank all of 
you for being here and for what you do to keep the country safe 
and for your leadership.
    And I wanted to start with a question for you, Secretary 
Johnson. We in New Hampshire are facing a public health 
epidemic with opioid and heroin abuse, and we have had a 
situation where we have had a 60-percent increase in drug 
deaths. And recently, Mr. Secretary, I know that you--thank you 
for reviewing the transcript of the hearing that we had, 
Senator Shaheen and I had, in New Hampshire, of this Committee, 
which was where we had the Customs and Border Protection (CBP) 
Commissioner Gill Kerlikowske there; we had the Drug 
Enforcement Administration (DEA) Acting Administrator Jack 
Riley there; and Director Botticelli from the Office of 
National Drug Control Policy.
    So they testified, but also we heard from the police chief 
of our largest city, Nick Willard, and Chief Willard said 
something that I think is really important that is right in 
your wheelhouse, which is they had an arrest recently--they 
responded to a shooting in Manchester, and they had officers 
``go into an apartment unknown to us previously''--these are 
his words--``and we found it to be a drug house. And from that 
we did an investigation that led to Lawrence, Massachusetts, 
and from Lawrence, Massachusetts, directly to Mexico. So now we 
know that there is a Mexican drug cartel, the Sinaloa drug 
cartel, that is fueling heroin to the streets of Manchester, 
New Hampshire, and that is alarming.''
    I would agree with Chief Willard. We know this is coming 
over the Mexican border. It is really cheap on our streets 
right now, and obviously this is a very complex problem. There 
is some very strong, bipartisan legislation we are working on 
here across the aisle.
    But, Secretary Johnson, can you tell me what more we need 
to do to interdict more drugs, especially heroin, coming over 
from Mexico? And how are you working with Mexican authorities 
on this issue and also other departments, including the FBI, 
DEA? Because this really is a public health epidemic.
    Secretary Johnson. Well, first, Senator, thank you for 
conducting that field hearing. I found the testimony and your 
remarks from that enlightening, and you have put a spotlight on 
a serious problem in New Hampshire.
    From my perspective, interdiction is the key. Interdiction 
at the Southern Border is the key. And what we have done in my 
Department is devise our Southern Border Campaign Strategy, 
which is a consolidated, strategic effort to bring to bear all 
the resources of my Department on the single problem of border 
security, which includes people and narcotics. So that is not 
just CBP. It is also Immigration and Customs Enforcement (ICE), 
Homeland Security Investigations (HSI), and we are generally 
moving in the direction of a more coordinated strategy, which 
includes the DEA and other elements of our law enforcement.
    Eventually, I would like to do the same thing on the 
northern border so that we are less stovepiped in our approach 
to both borders, and my hope is that at some point the Congress 
will codify our Southern Border Campaign Strategy into law and 
give us the additional resources we need to further work on 
this effort. But, obviously, interdiction is the key.
    Senator Ayotte. And, Director Comey, I wanted to ask you, 
one of the things that we know that the people who are 
addicted--law enforcement is telling us, rightly so, ``We 
cannot arrest our way out of this problem.'' But they want to 
focus on the kingpins. They want to focus on the cartels. We 
saw from Secretary Johnson what he just said, obviously the 
interdiction piece. But how is the FBI working to go after, for 
example, the kingpins of these enterprises that are really 
making the money off of it and getting more and more people 
addicted, unfortunately, in our country.
    Mr. Comey. The answer is working especially closely with 
DEA, our strategy is focused on what we call ``transnational 
organized crime,'' so the big syndicates and the cartels, to do 
just what you said, to drive up the cost for them, to lock up 
them and their lieutenants, to make it harder for them to try 
to get drugs in, the interdiction being a separate piece of the 
strategy. And we are working hard at that every single day, but 
it is an enormous problem because of the shift you talked 
about.
    Senator Ayotte. Can I ask you, one of the issues that the 
chief raised and we talked about with the DEA--I just wanted to 
see if you had any insight on this. Chicago has an organized 
crime drug enforcement task force (OCDETF) model that they are 
working on, and I do not know if--the FBI I understood was a 
part of that model, which really was bringing--so it has sort 
of a partnership, as I understand it, DOJ, FBI, DEA, and local 
authorities. And our authorities are interested in could we 
bring a similar model to work together along with the High-
Intensity Drug Trafficking Area (HIDTA) task force in New 
Hampshire, and I just wanted to get your thoughts on that type 
of model.
    Mr. Comey. Yes, it is a model that we have--I cannot 
remember what the nearest OCDETF task force is to New 
Hampshire. There may be one in Boston. I cannot recall. But 
that is a huge feature of our work, because drugs is not the 
Bureau's specialty, but we have certain capabilities that we 
can bring to bear, so we tend to bring it to bear in those task 
forces, which is both--mostly OCDETF, actually, and also 
HIDTAs.
    Senator Ayotte. Well, I would ask you, because when I had 
Administrator Riley in New Hampshire, I would ask you, Director 
Comey, can you work with us on this, and Administrator Riley 
committed that from the DEA, too, to see--just to make sure--
and I will say that Chief Willard said that he has been really 
pleased with the help he is getting from the FBI. But looking 
at are there better ways we can do this and make sure we are 
all working together in a cohesive fashion.
    Mr. Comey. Sure. Thank you.
    Senator Ayotte. I appreciate that.
    I wanted to ask about this issue of--I know in your 
testimony, Director Comey, you talked about the estimate that 
250 Americans have traveled--I do not know if it is in 
Secretary Johnson's or your testimony--have traveled or 
attempted to travel to Syria to participate in, obviously, the 
conflict, and we are worried about, obviously, their 
participation in the jihad. And one thing I wanted to ask about 
is, I understand, Director Comey, that we have had an effort 
where we have been arresting people across this country very 
aggressively, and as I understand it, we have had maybe close 
to 50 arrests that are related to these issues. Maybe the 
person did not travel to Syria, but they have some connection 
where they are at least perhaps attempting to travel, a 
connection to ISIS. Could you tell us what is happening? 
Because I think it is important for the American people to 
understand that this is happening quite frequently. Your 
department is trying aggressively, working with Homeland 
Security, to arrest these individuals. But what have you been 
doing across the country in terms of arrests that are being 
made?
    Mr. Comey. Yes, we are trying to--the arrests are part of 
our strategy to do two things: to incapacitate people who might 
otherwise travel over to the so-called caliphate, and then 
become much more dangerous to us. I know some folks say, ``Why 
don't you just let them all go? Maybe they will get killed 
there.'' Well, maybe they will not. And when they have been----
    Senator Ayotte. We certainly do not want them coming back 
or going to hurt our partners in Europe.
    Mr. Comey. Right, and that is the future we are going to be 
talking about for the next 3 to 5 years. So we want to stop 
that.
    We also want to send a really scary message because what we 
see in the travelers is they are getting incrementally younger, 
and more females think that it is a great way to find a life. 
So we are trying to send a message, first of all, that it is a 
nightmare there, especially for a woman. But that if you play 
around with this, you are going to end up in jail for a long 
stretch to try and change that behavior.
    Senator Ayotte. Could you give us a sense--I know my time 
is up, but who are you arresting? Like what is the background 
of the individuals? You said more women. Are you encountering 
younger people? Is this just centered in one community or is 
this something we are seeing across the country?
    Mr. Comey. No, the challenge for us is it is not--there is 
no geographic center to it, and in part because of the 
crowdsourced way that the message is going out, and there are 
kids and adults who are seeking meaning in their life, trouble 
people all over the United States. And so it resonates with 
those groups.
    What I meant was we are seeing--there is not a particular 
demographic, either as to location or to age. The Syria 
travelers early on ranged from something like 18 to 63. But 
what we have noticed is--and it is early so this is not a high-
confidence read--it seems to be drifting younger with more 
girls, and by girls I mean women under the age of 18, with whom 
this message on social media is resonating. And my hope is--and 
it is not just hope. I may see some early signs in the data 
that the message is getting out to families and to young 
people. First, it is a nightmare in Syria, do not go there 
thinking----
    Senator Ayotte. Of course, it is a nightmare. I mean, women 
are being raped, girls are being raped.
    Mr. Comey. Exactly.
    Senator Ayotte. It is horrific.
    Mr. Comey. It is hell on Earth. And this is not some 
joyride, that you will get in serious trouble if we get wind of 
it, and you will go to jail for a very long stretch. And we are 
doing--both of those things are important in driving the 
numbers down, but time will tell whether we are making progress 
there.
    Senator Ayotte. Well, thank you, and this is obviously 
something we are all very concerned about. I appreciate you all 
being here.
    Chairman Johnson. Thank you, Senator Ayotte. And, again, 
thank you for your leadership on this heroin issue.
    If you remember, during testimony at one of our border 
security hearings, General McCaffrey said we are only 
interdicting 5 to 10 percent of illegal drugs coming in through 
the Southern Border, really indicating how unsecure our border 
is.
    I want to thank Secretary Johnson. By the way, we were 
talking about the border metrics bill. That report language 
will be done I think next week, so hopefully we can get that 
passed as a first step, and we have been working on helping you 
codify your strategy, so happy to ramp up those efforts and 
kind of work on those areas of agreement. So thank you for 
that. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman. So much to talk 
about and so little time.
    I want to thank you, Secretary Johnson, for mentioning the 
Northern Border. It is a big balloon. You press on one area, it 
is going to stress another area. Obviously, we have huge 
workforce challenges on the Northern Border, recruiting and 
retaining workforce. And so we have been working with the 
Office of Personnel Management (OPM), working with your office, 
and I want to thank you for the attention that you have 
focused. Senator Ayotte and I have a bill that has already 
passed here and will hopefully require a new look at the 
Northern Border. So I will leave it there.
    Director, I do not mean to pick on you, but I am going to. 
Have you ever been to Indian country personally?
    Mr. Comey. Yes.
    Senator Heitkamp. Where?
    Mr. Comey. I have been to Navajo, I have been to Acoma 
Pueblo, a couple other pueblos.
    Senator Heitkamp. OK. Have you ever been to a Great Plains 
reservation?
    Mr. Comey. I have not.
    Senator Heitkamp. Pine Ridge----
    Mr. Comey. My children go to Pine Ridge every summer, so--
--
    Senator Heitkamp. I want to tell you, there is no place in 
the United States where you have more responsibility than 
Indian country. And there is no place where we do not have a 
cop on the beat. We can talk all we want about what is 
happening in places like New Hampshire. When Gil was the drug 
czar, he came out and he spent 4 hours listening to the 
challenges of Native American leaders in dealing with drugs, 
cartels, an easy place to hide because jurisdictionally it is a 
no-man's-land, and there is no cop on the beat. And a Native 
American woman said to him, ``We are an endangered species.''
    And we have huge and critical problems, and the FBI I think 
is failing in meeting the challenges, certainly in my part of 
the world, in protecting Native American people. We have record 
numbers of rapes of small children. We have a record amount of 
drugs. A tribal chairman told me that 40 percent of all the 
children born on one of my reservations is meth-addicted.
    And so I am begging you to help. I am begging you to seek 
an opportunity to participate and to bring Federal law 
enforcement and bring your counterparts at DEA and really start 
focusing, because as we talk about the structures of law 
enforcement--and, I spent 8 years, as North Dakota's Attorney 
General. When people said, where is it that the FBI gets along 
with the rest of the States, I would raise my hand. We have a 
terrific relationship with the FBI and local law enforcement. 
But we lose and we fail in Indian country. And you cannot 
protect a whole State when you have a huge amount of land and a 
huge opportunity for people who are peddling poison to 
basically go undetected, invisible, and not even, any threat at 
all of prosecution right there on the reservation. And people 
who can move are moving, and people who cannot move are being 
exploited.
    And so I am wondering if within the FBI and within the 
Department of Justice and your counter agencies whether there 
is an opportunity to really do more surge work in Indian 
country, especially in my part of the world.
    Mr. Comey. The answer is yes, and thank you for that. It is 
not picking on me because I agree with you totally. And I am so 
grateful for your passion because I have had a bunch of 
meetings on this as Director. My children--when I became FBI 
Director--had just returned from Red Shirt Table, and my two 
girls said to me, ``You have to do something. You would not 
believe what it is like.'' Well, I understand in a pretty good 
way what it is like, and I describe it as ``a crime scene 
without representation.'' No one speaks for these places. So to 
hear you speak for this, Senator, is a wonderful thing.
    So I have done some; not nearly enough. I have pushed 
additional resources to the Minneapolis Division, which covers 
you. I have changed the way we assign and recruit agents to 
Indian country to get more there and to get more talent there. 
But I have to do more, and so watch this space. But I would 
love to talk to you about it again.
    Senator Heitkamp. I would welcome the opportunity to talk 
about what we need to do, because a lot of people do not 
understand jurisdictional challenges. I spent a lot of time 
trying to get memorandums of understanding (MOUs) so that we 
could get drug task forces, and this was back when we were 
worried about far less influx of white powder heroin, 
methamphetamines is epidemic. And the challenges are not only 
in the public health arena, because Indian Health is not 
equipped to handle this, but there are certainly in the law 
enforcement. And we need a cop on the beat, and that is the 
Federal officials. You have primacy here.
    And so I look forward to working with you on those issues 
and making sure that this big part of my community, which is 
Native American people, has the same level of public protection 
as any other American. And right now, I have a huge land mass, 
one cop, and a big river in between, and no way to get across 
the river to protect people. And these challenges are in 
Alaska, they are, as you said, on the Navajo. And so I want to 
thank you for your willingness to have this conversation. I 
want to tell you we are passionate about it. Senator Tester and 
I have talked over and over about this. And we would welcome 
you in North Dakota.
    Thank you.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. And thank you all 
for being here and for your service.
    On the issue of opioid abuse, particularly heroin, which is 
the growth area in my State of Ohio and around the country, we 
now have the alarming statistic that in Ohio it is the No. 1 
cause of death, greater than auto accidents, which is typically 
the case.
    I was able to speak at the rally on addiction that occurred 
on Sunday evening here and then spent the week with some of the 
individuals who came in from Ohio, and I do believe that this 
is an epidemic level at this point, particularly in certain 
parts of our State. And, by the way, the addiction rates in our 
rural communities are higher than in our urban or suburban 
communities now, according to the latest statistics that we 
have. And I focus more on the demand side and the treatment and 
recovery side, but law enforcement plays a critical role, and 
we need your help in Ohio. We do have some HIDTA programs that 
are working well. And I appreciate your commitment to that 
today.
    Switching gears for a second, Secretary Johnson, just over 
a week ago, you stated, ``The threat of foreign terrorist 
fighters requires the comprehensive efforts of all of our 
partner agencies and allied nations. We will continue to adapt 
to this evolving threat and take necessary action to protect 
the American public.''
    I would ask this morning, Director Rasmussen, if you could 
give us some information on these foreign fighters, and, 
specifically, my concern is, of course, these visa waiver 
countries. Can you tell us how many foreign fighters from visa 
waiver program countries have traveled to Syria to date?
    Mr. Rasmussen. I would have to get back to you with a 
breakdown by the visa waiver countries, as we understand it, 
Senator, but in aggregate, we assess that if you go back to the 
period when the conflict began, well over 3 years now, and look 
in aggregate, the population of individuals who we assess have 
traveled to the conflict zone is upwards of 28,000 right now. 
Now, that is an aggregate, so it does not mean that today as we 
speak there is a pool or a population inside Iraq and Syria. 
That captures and covers 3 years of activity. It also captures 
and covers activity in both directions, individuals who have 
died on the battlefield, individuals who have come and gone, 
individuals who have left and gone to other onward third 
locations. From the West--and that would largely capture the 
visa waiver countries that you are talking about, Senator--we 
assess that that population, that aggregate total, is somewhere 
in excess of 5,000, with the number of U.S. persons, as the 
Director indicated, being approximately 250.
    So that is the broad breakdown of the numbers as we have 
them. The greatest supply of countries come from the immediate 
front-line States in the region, as you would imagine, because 
travel is so easy. But then as you get into the next outer 
ring, which, of course, would include Southern and Western 
Europe, of course, the population numbers are significant there 
as well.
    Senator Portman. That is a shocking number, 5,000, and just 
so people understand what we are talking about here, these are 
countries that have a visa waiver program with the United 
States where they can come to the United States without going 
through the normal process to get a non-immigrant visa. These 
are countries that are sending foreign fighters into Syria. The 
concern is they would then go back to their country of origin 
and then be able to come to the United States under a visa 
waiver. And 5,000 is obviously a huge number and a huge 
concern.
    If you would not mind, what I would like to do is ask you 
to get back to me on a more specific number from the visa 
waiver countries, and, specifically, I have a concern about the 
lack of information sharing. We have programs with some of 
these countries where we try to share information, but the 
passenger name recognition data, as I understand it, leaves us 
vulnerable to some of these countries sending us some of these 
foreign fighters.
    Can you tell us a little about that, or anybody else on the 
panel, how that program is working and what else can be done to 
get better data on these people?
    Secretary Johnson. Senator, let me start. I agree with you 
about the concern of foreign fighters coming from countries for 
which we do not require a visa, which is why last year we 
required additional information, data fields in the electronic 
system travel authorization (ESTA) database, those who want to 
come here, and then in August of this year, we identified a 
number of security enhancements that we could obtain from 
countries in the program so that we have a much better idea of 
who is coming here from those countries. They include, for 
example, the requirement that these countries make better use 
of API and PNR data, that they use the Interpol database for 
stolen passports on a more regular basis, that we increase the 
use of Federal air marshals on flights coming from these 
countries. There are a whole series of security enhancements 
that we identified that we could obtain and we are obtaining 
from these countries for exactly this reason.
    Senator Portman. And what more do you need? What more can 
we help you with? Is there anything legislatively we can do or 
a codification of any of that or other ways to ensure we do not 
have these foreign fighters slipping into this country?
    Secretary Johnson. Well, HSPD-6, which is a Presidential 
directive, gives us a lot of authority in this area, and if 
countries want to be in this program, they should agree to 
these security enhancements. So that has been the mechanism for 
our seeking greater assurances on that. But this is a concern 
of mine, and I am always asking my staff that exact question: 
Is there any legislative authority that we could use----
    Senator Portman. Well, let us know, and on the passenger 
name recognition data, my understanding is there are some 
concerns there. Is there more we can do to tighten that up as 
well? And maybe you can get back to us with a specific answer 
on that issue.
    On the Syrian refugees in general, as you know, Secretary 
Johnson, I have spent some time focusing on this issue of 
special immigrant visas for interpreters who served with our 
troops in Iraq and Afghanistan. We have had a real hard time 
being able to go through the security clearance for these 
interpreters, who had already gone through a clearance process. 
And so I have to tell you, I am very skeptical of what I hear 
today about 10,000 Syrians coming into this country and having 
some sort of an expedited process to screen them, having gone 
through the experience of these interpreters. So I guess I 
would ask you today, and, Director Comey, also, you expressed 
concerns about this as well, I have noted, in the public media. 
How are we going to deal with this? Sixteen hundred Syrians by 
the end of fiscal year (FY) 2015 are going to be admitted. 
Don't you think that also creates a threat to the homeland? 
And, if you do think that--from, again, your comments that I 
have seen in the public media, you have a concern about that--
what are we going to do about it?
    Mr. Comey. Well, yes, Senator, there is risk associated 
with bringing anybody in from the outside, but especially from 
a conflict zone like that. From the intelligence community's 
(IC) perspective, as I said, I think we have developed an 
effective way to touch all of our databases and resources to 
figure out what we know about individuals. And so that is my 
piece of it. I do not think that is a cumbersome process. My 
concern there is that there are certain gaps that I do not want 
to talk about publicly in the data available to us. But I 
cannot speak to the rest of the processing that may be part of 
what you are talking about.
    Senator Portman. Well, I think there is a significant gap 
because our intelligence in Syria is so bad. Right? I mean, we 
really do not have the information that we need to be able to 
process these folks. I think we need to figure this out 
quickly, given the fact we have made this commitment. But I do 
not know. Director Rasmussen, do you have more to add to that?
    Mr. Rasmussen. You have certainly highlighted, as a matter 
of comparison, the intelligence picture we have of this 
particular conflict zone is not as rich as we would like it to 
be so that would give us--obviously, when you screen and vet, 
you screen and vet against available intelligence holdings. The 
more you have, the more likely you are to be able to catch 
derogatory information that would cause you to review a 
potential case more closely.
    So I think the Director is absolutely right. We have a much 
more streamlined and effective system to make sure that all of 
our intelligence holdings are brought to bear as these 
decisions are made. But you can only review against what you 
have, and that is--and, again, we are actually building that 
fact into the way our analysts look at the picture as well so 
that at least we can identify where more questions need to be 
asked, even if intelligence is not available.
    Senator Portman. Well, my time has expired. I appreciate 
it, Mr. Chairman. But I think this is a huge issue, and before 
making these commitments, I hope that there is some dialogue 
with certainly you three gentlemen and your organizations, and 
I hope that we can come up with a screening process that is 
better than the one we have had on these interpreters I talked 
about, and particularly with even less intelligence, as you 
say, from the ground.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Gentlemen, thank you for your work to 
protect the Nation. It is extremely important. And I want you 
to hear from the folks in Oklahoma. We appreciate the work that 
you do, and it is incredibly valuable. We understand very 
well--as Jeh Johnson was in Oklahoma not long ago, Director 
Comey was in Oklahoma not long ago, we understand extremely 
well the threats that we face. So I just wanted you to hear 
from us again that we are grateful for what you are doing.
    I wanted to ask you, Secretary Johnson, you mentioned 
before about the cybersecurity bill. Can you explain to this 
Committee the why on the cybersecurity bill, why that is so 
important right now? Not the threats that are out there, but 
the specific language and what you need on the cybersecurity 
bill.
    Secretary Johnson. Yes, sir. Two principal things come to 
mind immediately.
    One, explicit congressional authorization for DHS'S ability 
to monitor, identify, and block unwanted intrusions in other 
Federal agencies through our EINSTEIN system. The virtue of the 
EINSTEIN system is that it has the ability to block intrusions, 
and it is a platform for greater and better technology in the 
future. So----
    Senator Lankford. And that is in the Federal systems, not 
private systems, correct?
    Secretary Johnson. Correct.
    Senator Lankford. OK.
    Secretary Johnson. No. 2, greater incentives through law 
for the private sector to share information with the Federal 
Government when it comes to cyber threat indicators. And so 
that is something that is in the pending legislation now before 
the Senate, and I think that is a very good thing.
    So those are the two principal areas. There is always the 
data breach notification requirement and enhanced penalties, 
but those are the two principal things we need.
    Senator Lankford. Voluntary cooperation or mandatory 
cooperation with the private sector?
    Secretary Johnson. We believe that encouraging voluntary 
cooperation with the private sector is the way to go.
    Senator Lankford. OK. That is a key aspect; I would agree 
on that. And I think the private sector and that cooperation, 
as Jim Comey mentioned earlier, the FBI does not come from 
Mars. We are all American citizens here, and finding ways for 
us to be able to work together on this I think is extremely 
important.
    I want us to be able to shift a little bit to what some 
other folks have talked about. We talk about the threat from 
ISIS. It is spectacular. And we talk about a couple of dozen 
folks that are here that are major concerns. Last year, we had 
over 10,000 deaths by heroin on the streets of the United 
States. Hotel rooms, houses, on the streets, people quietly 
dying from heroin and from narcoterrorists moving into our 
borders and distributing this incredibly toxic substance across 
our Nation. So whether it is heroin, whether it is cocaine, 
whether it is marijuana, whether it is methamphetamines, it is 
a very strategic move that is happening, and it is extremely 
aggressive and seems to be accelerating at a pace we have not 
seen before in many areas of certain types. We seem to have new 
locations that these drugs are coming from as well.
    So can you help me understand the coordinated strategy not 
only dealing with ISIS and those threats on American soil, but 
the threats that are coming in from narcoterrorists around the 
world as well, both their distribution networks, the 
interdiction, and if we are dealing with new locations and new 
groups to bring it in? How are we coordinating that among the 
agencies to take that on?
    Mr. Comey. Senator, I can start from the enforcement 
perspective. Your description is completely accurate, and I 
actually worry that our country is not getting it the way you 
described it. Recently, the Acting Administrator of the DEA, 
who is a great leader, sent over his team to brief me on their 
current view of the threat, and it is breathtaking. Cocaine use 
has gone down since 2006. That is good news. All the rest, it 
is not just bad news. It is awful.
    Senator Lankford. Right.
    Mr. Comey. And so the strategy from the enforcement 
perspective is try to disrupt the traffickers, try to lock them 
up, both the kingpins in Mexico, which is where this is coming 
from, and to disrupt the gangs and organized criminals they are 
using to distribute it in the United States, the goal being to 
try to drive up the price, to be honest. What is happening is 
heroin is so cheap and so pure that it is a tidal wave washing 
over children and killing them because they do not know how 
pure it is. And so that is the strategy from the law 
enforcement perspective: Drive up the cost by locking up as 
many of these people as we can.
    And I cannot speak to, obviously, the international piece 
as well as maybe others could.
    Secretary Johnson. Senator, on the interdiction front, I 
think the key is a good working relationship with the 
Government of Mexico. My Department and I personally spend a 
lot of time with my Mexican counterparts. I plan to go there 
next week. This will be a topic. We have our joint task forces 
here, but working with the Government of Mexico is obviously 
key, and I agree with you that we need to do a better job in 
this respect because the problem is getting worse.
    Senator Lankford. Yes, it is accelerating. We seem to have 
supply coming from new areas as well. Are you seeing new 
players internationally that are trying to actually get supply 
to the United States? I mean, Mexico is obviously a very close 
neighbor. They are pushing it all the way through North America 
all the way to Canada. Are there other locations that you have 
seen on the horizon that you would say this is a new region 
that we have not dealt with as much but they are trying to 
transport to the United States?
    Mr. Comey. The big focus is Mexico, because what has 
happened is the Mexican traffickers have figured out that they 
can do better by, instead of bringing Colombian heroin or 
heroin from some other place than the United States and 
transport to the United States, they are growing it in southern 
Mexico. They are growing the poppies. They are refining it 
themselves. So it is just a business. They just shorten their 
transportation routes. They have dropped their cost so they can 
sell it at a lower cost and a higher purity. And so it is that 
domination.
    And then the other piece, which is a plague in the West, is 
methamphetamine.
    Senator Lankford. Right.
    Mr. Comey. They are making it in huge factories in Mexico. 
Again, they are not bringing it in from Colombia or any other 
place anymore. So the center ground zero for this plague across 
the drugs is Mexico.
    Secretary Johnson. Let me give you a little bit of good 
news. The United States Coast Guard (USCG), we sent the 
national security cutter, the USS Stratton, on a 4-month 
mission down to Central America. While they were out for 4 
months, they interdicted $1 billion worth of cocaine, including 
large seizures off of submersibles that the cartels manufacture 
and run in the high seas between South America and Central 
America. So we want to continue those kinds of missions.
    Senator Lankford. OK. What is needed to be able to continue 
that kind of interdiction? Because as has already been 
mentioned, it is not coming from Central America. They will 
produce it in Mexico. And so trying to find those locations--
methamphetamine production, I believe, is going down in the 
United States, but it is rising rapidly in Mexico. So we have 
found effective ways to be able to limit the production in the 
United States. But now it is just being pushed out. So how are 
we handling trying to limit production there and to be able to 
work through the process? As you mentioned, visiting with your 
Mexican counterparts is a good step, but the fields continue to 
grow that are there both with poppies and marijuana. And the 
production, and the locations to be able to pick up the basic 
supplies to be able to do methamphetamine, and the 
international connections for those. How can we help?
    Secretary Johnson. Greater coordinated law enforcement 
between our two governments. That is the key. And we do that on 
a regular basis, but we need to do more.
    Senator Lankford. OK. Thank you for all your work on that. 
I would tell you keep your eye on the ball on that, because 
that is something that we deal with on our streets across the 
entire country all the time. You all know that very well. The 
focus cannot be off, obviously, international terrorism, which 
happened with ISIL and their plans and their intentional focus 
to try to penetrate the United States, but we know the 
narcoterrorists are penetrating us every single day, and to be 
able to find a way to be able to go through that.
    One other quick side note, if I can, Mr. Chairman. 
Secretary Johnson, your Department has been very good working 
with the State of Oklahoma and dealing with the REAL ID. We are 
trying to work through all the final details. You have been 
good on a waiver on that with us. We are addressing that as a 
State, and I appreciate your waiver for us as we try to work 
through the final process to get up to speed on it. So I 
appreciate that.
    Secretary Johnson. Thank you. The thing I would emphasize 
there is that we are progressing in our efforts to enforce this 
law, and there will come a point where we have to set some real 
deadlines. So I am pleased at the progress that we have been 
making in working with State officials in Oklahoma.
    Senator Lankford. It has been good. Thank you.
    Chairman Johnson. Thank you, Senator Lankford.
    Director Rasmussen, in your previous testimony, you talked 
about the fact that we have taken a number of these terrorists 
off the map, and I guess I want to get your assessment of the 
unfortunate reality, you take them off the map and they are 
replaced. Both the leadership as well as the flow of foreign 
fighters seems to continue largely unabated. Can you just give 
me your sense of how effectively the people we are killing are 
being replaced?
    Mr. Rasmussen. I will do the best I can in open testimony, 
Senator, Mr. Chairman. One of the ways we look at this as an 
intelligence community is try to identify who brings unique 
capability to the terrorist enterprise, whether that is from a 
leadership level, a high-value leadership target, someone who 
may have a very specific set of skills perhaps, in the weapons 
of mass destruction field or use of explosives, someone who has 
shown ability to organize and orchestrate significant large-
scale plotting activities. Those kinds of individuals will be 
worthy of, focused intelligence collection and whatever 
disruption capabilities we can bring to bear.
    I will probably want to leave it there. Now, that is an 
ongoing----
    Chairman Johnson. What about the flow of foreign fighters?
    Mr. Rasmussen. The flow of foreign fighters, there is 
nobody who is satisfied that we have yet turned the tide in 
terms of getting that flow to have crested. I will say, though, 
if there is a good-news story somewhere embedded in this 
foreign fighter story, it is that the level of information 
sharing, some of which Secretary Johnson was talking about a 
few minutes ago, particularly with our European partners, is 
much more robust than it would have been if we had entered--at 
the point we entered this crisis 2 years ago.
    Chairman Johnson. Again, the purpose of this hearing is 
laying out the reality, and so the reality is we have not 
stemmed the flow the way we want to.
    Talk a little bit about the significance of the caliphate 
and the territory. There was an excellent article written by 
Graeme Wood\1\ that really was pretty eye-opening, I think, for 
many people in Washington. We talked about that, Director 
Comey. Can you talk about that significance, again, lay out 
that reality and why part of our strategy has to be to deny 
them that territory to really end this caliphate?
---------------------------------------------------------------------------
    \1\ The article referenced by Senator Johnson appears in the 
Appendix on page 64.
---------------------------------------------------------------------------
    Mr. Rasmussen. There are a couple of different features of 
ISIL's declaration of the caliphate that make it particularly 
concerning. One is, as you yourself suggested, Mr. Chairman, it 
becomes almost a magnet to attract individuals who are seeking 
meaning, who are seeking to participate in a global jihadist 
enterprise, and that is, unlike al-Qaeda, who is often running 
their enterprise as a clandestine movement with a very, very 
rigorous vetting process before allowing individuals inside the 
fold, ISIL is issuing an open invitation on social media for 
people to come to the caliphate and join.
    So simply in terms of size and scale, the declaration of 
the caliphate gives us concern because it provides that magnet. 
But beyond that kind of somewhat amorphous effect, the creation 
of a caliphate and the control of physical space, as I 
mentioned in my testimony, gives the terrorist organization the 
opportunity to gather resources, to operate potentially in a 
safe haven environment. And while they are managing other 
priorities, it gives them the time and space to pursue more 
aggressive, ambitious external operations, again, maybe of the 
sort even that al-Qaeda did traditionally.
    So that is I guess what I would say: The part of the 
caliphate that gives me the greatest concern is that physical 
space in Iraq and Syria that you yourself pointed to with your 
question.
    Chairman Johnson. So the goal of our strategy with that in 
mind really needs to be to deny them that territory. I mean, if 
you are going to degrade and ultimately defeat ISIS, you have 
to deny them that territory.
    Mr. Rasmussen. I would agree, Senator.
    Chairman Johnson. Director Comey, just a quick suggestion. 
I did meet with this young Yazidi woman, ``Bazi,'' who had the 
courage to come forward and tell her story in terms of 
combating on social media these young women who are actually 
inspired to go to Syria and Iraq to join ISIS. That would be a 
pretty powerful way of doing it. Just a comment.
    Secretary Johnson, we have held eight hearings on border 
security now. We are going to hold our ninth. In a couple 
weeks, we will issue the majority report on our conclusions 
from those hearings. I think we are in agreement that--because 
we have talked about this repeatedly. I am a manufacturer. I am 
always looking for the root cause. And I think we agree, 
Senator Carper, that the root cause of our unsecured border is 
literally our insatiable demand for drugs, and it has been 
insatiable for decades, which has given rise to the drug 
cartels, who are beginning to combine with transnational 
criminal organizations, potentially terrorist organizations, 
and so that is what we need to address. It is one of the 
reasons I pointed out the fact that General McCaffrey said we 
are only interdicting 5 to 10 percent of the drugs coming to 
the southern border, which shows you how unsecure our border 
is. So, again, we have to lay out that ugly and harsh reality.
    I would like to give you, Secretary Johnson, the 
opportunity--you have talked about the strategy that you are 
trying to employ that you would want this Congress--and, quite 
honestly, a lot of this would come through this Committee--to 
help you codify. So can you just describe what your strategy is 
in kind of summary detail here. And, again, I am completely 
committed to work very closely with you and your Department to 
codify this in a step-by-step approach, which is, I think, the 
way we can actually accomplish it. Let us find the areas of 
agreement that unite us.
    But can you kind of lay that out and give me the priorities 
of the components? Again, we started with you need information 
to solve a problem, so the border security metrics bill we are 
going to try and move that and get that passed and on the 
President's desk as soon as possible. But then what are the 
next steps? And what is your strategy?
    Secretary Johnson. In terms of pure border security, 
Senator, more technology, more surveillance, to pursue a risk-
based strategy so that we go after the threats where they know 
they exist. More surveillance, more technology, which is 
reflected in our fiscal year 2016 budget submission. We need 
help in terms of speeding the process of deportations and 
asylum applications in the immigration courts, more resources 
to accomplish that so that the time it takes to litigate is not 
as long as it is.
    But, frankly, given--you mentioned the root causes in this 
country. I want to mention the root causes that exist in 
Central America. The last time I was on the border, I talked to 
a 7-year-old girl who came all the way from Central America all 
by herself to Texas, and more surveillance is not going to 
deter a 7-year-old who is fleeing poverty and violence in 
Central America from coming up here.
    So my judgment is that we have to address the underlying 
causes in those countries. We talk about addressing the 
underlying causes for refugees in Syria. We have to do the same 
in Central America as well. And so the administration has asked 
for $1 billion to invest in Central America, and I hope the 
Congress seriously considers that. As long as the conditions in 
those countries are as bad as they are, we are going to have 
the types of numbers that we have coming from Central America.
    And so I want to invest in a smart, efficient border 
strategy which includes surveillance and technology on our 
border, but we have to address the underlying causes, too.
    Chairman Johnson. But if we do survey and detect and we 
apprehend and we process and then we distribute and disperse 
around America, that sends a pretty powerful signal, too, to 
Central America that if you get to America, regardless of what 
our laws say, if you get to America and we do not send people 
home, that is going to increase the flow. I mean, it is the 
problem right now with Syria. And we just had the President of 
Germany in. The more Europe accepts of the refugees from the 
compassion that we are as people, to address that humanitarian 
crisis, the more they accept in, the more of the 4 million that 
are displaced outside will flow into Europe, the more the 7.6 
million are displaced within Syria will flow--will become 
refugees and flow into Europe.
    So we have a capacity in our country to take people. We are 
a Nation of immigrants. But at the same time, we have to 
recognize what incentives we are creating for illegal 
immigration. We also have to assess--and we are going to be 
going down to Central America--are there governing structures, 
are there leaders like we had in Colombia, are there leaders 
that will actually take that money and use it properly to 
improve conditions? Or are we just basically wasting that money 
as well? Those are legitimate questions. But I think we really 
do have to address this as part of our border security 
strategy, again, assessing the fact of our insatiable demand 
for drugs, also look at every incentive that we have created 
within our law for illegal immigration. We have talked about 
this. The No. 1 is work. So let us have a functioning guest 
worker program.
    There is a host of issues, but really we can control things 
here. I do not know how much we can control in Central America. 
We are compassionate. We want to help, and that would be great. 
I am not sure how much we can do. But we can do things here, 
and so let us make sure we are addressing all those incentives 
within our law, within our adjudication process, that are 
incentivizing people to come into this country and end those 
incentives.
    Secretary Johnson. I do not disagree with what you are 
saying, but I do believe, having spent my 22 months as 
Secretary of Homeland Security intensely focused on this 
problem, that a large part of the solution is addressing the 
conditions in Central America. It is not simply as a matter of 
compassion.
    Chairman Johnson. Again, if we can make those economically 
prosperous zones, not havens for drugs and corruption, I would 
agree with you. I am not sure we can. Short term, there are 
some things we can do short term inside this country ourselves. 
Senator Carper.
    Senator Carper. As our Chairman has heard me say, and I 
think you, Mr. Secretary, have heard me say many times, find 
out what works, do more of that. And if we go back and look at 
Colombia 20 years ago, a failed nation, Plan Colombia, which we 
supported, funded, they had good leadership. They had a lot of 
leadership from the private sector as well, and bit by bit they 
have turned things around there. So somebody has done this 
before. We were involved in that, and so were other folks.
    And I would say with respect to Central America and the 
movement of all these folks up to our country, especially last 
year--not as much this year--there is a root cause, and you 
have nailed it, Mr. Secretary. But what the Chairman says, 
there is a lot of wisdom in that as well. It is not a choice of 
doing one or the other. Actually, we need to do both. And the 
question is: Can we walk and chew gum at the same time? I think 
we can, and I think we must.
    Nick, I have taken it easy on you today, and I am going to 
get you into the game here for a little bit. Does the name 
Jessica Stern mean anything to you?
    Mr. Rasmussen. Yes, sir. She is a terrorism expert, I 
think, in the academic world right now, but she has former 
government service.
    Senator Carper. And her husband does, too. Her husband, 
Chet Atkins, was a former colleague of several of us in the 
House of 
Representatives for a number of years, and I had the good 
fortune--she actually testified here, I think at our hearing on 
Jihad 2.0 earlier, and I had a chance to meet with her and her 
husband a couple of months ago. And she was good enough to give 
me a couple of her books, one called ``ISIS: The State of 
Terror,'' and that is a recent book; and then another one that 
she had written, gosh, more than a decade ago, and her older 
book focused on what is it that is causing estranged, alienated 
men, largely, to create in this country faith-based 
organizations in many cases that are really designed--that are 
morphing into terror organizations. And she grew that into 
visits all over the world, Palestine, if you will, Afghanistan, 
Iraq, all kinds of places. And what she was trying to do is 
drill down on root causes. What is it that is causing these 
mostly guys to leave their countries and go off in many cases 
and form an outfit or join an outfit like ISIS? And she 
concluded is this. She said these are mostly men without much 
meaning in their life. These are people who are--they do not 
like this country. They think of us as a Great Satan, a lot of 
immorality. The prospect of adventure, of real meaning in their 
life, the prospect of when they die they go to heaven, before 
they die they have all these wives, and for people that there 
is not much happening in their life, there is not much 
prospect, she said they are ripe for the plucking.
    Does she have it right there? Again, thinking about root 
causes, part of the root causes, why are all these people, when 
they come from all over the world, to join up with ISIS?
    Mr. Rasmussen. Thank you, sir. I think she certainly has 
part of it right, and the words you are using on her behalf or 
as part of her academic work echo some of the same analysis 
that our analysts across the community are engaged in.
    But I meant to add this when one of your colleagues on the 
Committee asked earlier about underlying conditions or 
underlying causes. If you look at each and every one of the 
conflict zones around the world that are particularly fraught 
right now or where ISIL seems to be able to take hold in some 
form or fashion, another recurring theme that runs through it 
is sectarian conflict. And so when there are in those locations 
significant unresolved sectarian issues--and I do not need to 
go into the details on how that plays out in Iraq and Syria and 
across the Levant between the Sunni and Shia communities, that 
just creates a much more fertile ground for the ISIL narrative 
to take hold. So that, as you develop--as you consider 
mitigating strategies, that adds a layer of complexity to what 
you are trying to do, because you are not simply setting up a 
condition where you are good against evil or good guys against 
bad guys. If your terrorist population of concern is also 
enmeshed in a sectarian conflict in which the answers are not 
easy, or if they were easy, they would have been seized upon by 
previous Iraqi and Syrian Governments, all I am saying is that 
adds a layer of complexity to a somewhat more simple narrative 
of personal alienation. And, again, I am not saying ``simple'' 
in a derogatory way. That is just one level of the problem.
    Senator Carper. It seems that none of the people who are 
coming are going to join in the fight with ISIS. Some of them 
are coming from--they do not have much in terms of earning 
power. They do not have a lot of money in their lives. And one 
of the things that I hear that may attract them is being paid, 
to get some money out of this.
    Could you just take a minute and give us an unclassified 
assessment of ISIS' finances? Are they running a deficit? Are 
they having trouble paying their bills? What are some of the 
factors--how do these factors impact their ability to be 
successful?
    Mr. Rasmussen. That is a very good question. At a gross 
aggregate level, we believe ISIS is a well-financed, well-
resourced organization right now. At the early stages of the 
conflict, we assessed that some of the resource base on which 
they were relying was not necessarily going to be replenishable 
or a recurring base. You can rob a bank or the central bank in 
Iraq once, but you cannot rob it again and again and again. So 
I think we had hoped that over time ISIL's ability to generate 
additional resources would go down more dramatically than it 
has. What they have shown is an ability to muster ways to use 
the natural resources present in the territory they control, 
principally oil, and exploit that for financial gain and 
actually develop their own manufacturing capability, and in a 
sense run an organization like a State.
    And so I think unlike the al-Qaeda financial picture which 
we were dealing with for a number of years where you were 
worried about specific fundraising activities in certain far-
flung capitals around the world and money flowing to, Pakistan 
to fund terrorist activity, this is much more self-generation 
by ISIL as it functions like a State, including using taxation 
but also extortion, also criminal means as well.
    Senator Carper. All right. Thanks. One last quick question, 
if I could, Mr. Chairman, and this is one for Secretary 
Johnson.
    I understand you have established a new Office of Violent 
Extremism. Could you just take a moment and share with us how 
this office will do things maybe differently from DHS' existing 
efforts to counter violent extremism?
    Secretary Johnson. A couple of things.
    One, this office and this Director will report directly to 
me.
    Two, I am consolidating all the personnel within the 
Department in headquarters who work on CVE in that one office 
under the supervision of that one Director.
    And, three, we want to eventually use this office to extend 
its reach out into the field so that we have more reach in the 
field, because when you embed people in the communities, you 
get some good results.
    And I want this office to focus on taking our efforts, 
along with the FBI and other agencies, to the next level, which 
is giving the counter-message a larger platform and encouraging 
leaders in those communities along with the tech sector to get 
together and do that, encourage philanthropies, and develop 
some of our own grantmaking in this specific area.
    Senator Carper. Thank you. Our thanks to each one of you. 
Thank you.
    Chairman Johnson. Senator Baldwin.
    Senator Carper. It is pretty good timing.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman, Ranking Member.
    I want to thank all three of you for your service. I was 
here for your testimony. As you know, I had to step out. And so 
at the risk of getting into some of the territory that has been 
covered in my absence, I apologize for that.
    I want to dovetail on some of the questions that Senator 
Carper asked in his first round relating to the Syrian refugee 
crisis and, in particular, the waiting process. A number of you 
testified that we are getting better at the vetting process 
over time, but we are not 100 percent error-proof yet. Also, 
Chairman Johnson talked a little bit about prioritization in 
terms of family members of Syrian Americans.
    In this public setting, if you can outline how we make this 
process more efficient and swift without sacrificing the 
thoroughness and quality. And if you can talk a little bit, 
Secretary Johnson, about the prioritization process, to the 
degree that it exists, that deals with family members. I would 
assume that the vetting for a child is different than the 
vetting for an adult and others with ties to the United States. 
Recognizing that we are currently in a public setting, please 
tell me as much as you can.
    Secretary Johnson. Yes. There are several agencies involved 
in the process--United States Citizenship and Immigration 
Services (USCIS), State Department--and when a refugee is 
referred to us, they are referred to us by United Nations High 
Commission for Refugees (UNHCR). So UNHCR will have done some 
of its own vetting, not necessarily the security vetting that 
we would conduct, and in referring a refugee to the United 
States in particular, it is my understanding they do so because 
there are family connections to the United States versus some 
other countries. So by the time they come to us, UNHCR has 
adjudged them to be a good candidate for resettlement in the 
United States.
    Once they are with us, the State Department meets with the 
individual. My understanding is that somebody from USCIS will 
personally interview the refugee. There is a pretty extensive 
background check now that includes vetting against a lot of 
other databases and agencies, including law enforcement and 
intelligence. It is better than it used to be, and the good 
news here is that UNHCR has already identified a number of 
refugees that they believe would be appropriate for 
resettlement in the United States. So we are not starting from 
scratch. We are waiting for people to pick up and leave Syria. 
UNHCR has already identified a number that are suitable for 
resettlement in the United States, and that is where we start.
    There was a reference made to 1,600 resettled this year. I 
think we will finish out this fiscal year--the last fiscal year 
closer to around 2,000. So we will have gotten through the ones 
that we were focused on in fiscal year 2015. But I do want to 
be--and I have told our people we should be--very careful in 
the security reviews for each of these. I agree with the 
assessments that have been expressed here earlier that this is 
a population of people that we are not going to know a whole 
lot about necessarily coming from Syria. So we are going to 
meet our commitments with the resources we have, but we will do 
so carefully.
    Senator Baldwin. Thank you. Mr. Rasmussen in your written 
testimony, you described the increasing competition and 
conflict between the Taliban, ISIL, and al-Qaeda as a dynamic 
that you are working to understand more thoroughly. You also 
mentioned that the conflicts between these groups may in some 
respect distract from their Western targets.
    You said you do not have all the answers. What are the 
questions that you are asking? I have always worried that 
conflict between these groups could lead to a competition to be 
more spectacular than each other and that, of course, gives us 
great concern.
    Mr. Rasmussen. The conflict plays out at a number of 
levels. First of all, there is kind of at an ideological level 
conflict and competition taking place between al-Qaeda and the 
affiliated groups that still remain affiliated to al-Qaeda in 
Yemen, Al-Shabaab in Somalia, for example, other al-Qaeda-
affiliated organizations, competition between them and ISIL for 
preeminence in the marketplace of ideas among global 
extremists. So that is at a very--at a high altitude.
    But on the ground in certain locations, there is actually 
much more on-the-ground physical conflict between ISIL or ISIL-
related groups with the Taliban in Afghanistan, for example, 
where actually there you have individuals who in other 
circumstances might even be comrades in arms, but in this 
circumstance are actually engaged in fighting and killing each 
other on the battlefield, even as Afghan National Security 
Forces and U.S. Coalition Forces are also present in the 
theater as well.
    So I take your point that you certainly do not want to 
create a competition for ever greater levels of spectacular 
violence, but the one thing that internal conflict, 
particularly that conflict on the battlefield in a place like 
Afghanistan does, is it does tend to be pretty all-consuming 
for a terrorist organization to fight a ground war against 
other extremist adversaries in a place like Afghanistan.
    So we are watching very carefully to see if the ISIL 
province in Afghanistan turns its attention from that effort to 
gain on the ground against the Taliban, turns from that project 
to something that would be aimed at us, particularly something 
with an external focus, something looking at the West akin to 
al-Qaeda over the last dozen years.
    So I do not necessarily want to call it good news or that 
we are heartened, but what we do as a matter of assessment is 
realize that terrorist organizations often have finite 
capabilities, and so they do not necessarily have the ability 
to prioritize everything equally. The more they are engaged in 
that kind of effort on the ground that is often very resource-
intensive, the less capacity they have to carry out the more 
kind of complex plotting.
    Senator Baldwin. In your verbal testimony this morning, you 
talked about ISIL having overtaken al-Qaeda, and you pointed to 
access to resources territorial control, and control over 
people. Is there still a very sharp distinction between ISIL 
and al-Qaeda with regard to their aspirations to control 
territory? And how does that relate to the risk that the 
organizations pose to our homeland?
    Mr. Rasmussen. From al-Qaeda's perspective, ISIL's 
declaration of the caliphate is illegitimate and premature, and 
so they differ fundamentally on a central premise of the ISIL 
agenda.
    At the same time, I would not draw some huge distinction 
between the two groups as they look at the legitimacy or virtue 
of attacking the West in whatever way that they can find the 
capacity to do so. Now, they are not making Common Cause with 
each other in that effort because of the philosophical and 
leadership cleavages. But at the same time, we worry and watch 
for individuals who might migrate across organizational lines 
to cooperate with each other for specific purpose-driven 
efforts. Just because someone is ISIL or al-Qaeda one day does 
not mean that that is--laminated badge from the organization 
may not last very long. You may find yourself changing teams, 
changing sides. And that is why I say what I said in the 
testimony about ISIL gaining preeminence. Success breeds 
success, and more individuals have flowed in the direction of 
ISIS/ISIL for that reason.
    Senator Baldwin. Thank you.
    Mr. Chairman, I note that I have exceeded my time already. 
I have one other question that I wanted to ask the witnesses. I 
would ask unanimous consent to submit it for the record.
    Chairman Johnson. That is fine, and we will keep the record 
open for questions for the record.
    Thank you, Senator Baldwin.
    It is another tradition of this Committee, at least since 
Senator Carper was Chairman, to give the witnesses a chance to 
just make kind of a closing comment, things that you would want 
to remark after the questioning. So I will start with you, 
Director Comey.
    Mr. Comey. I do not think I have anything. I think we have 
covered a complex set of topics in a pretty good way. I am not 
sitting here thinking there is something lingering.
    Chairman Johnson. Good. I appreciate that. Secretary 
Johnson.
    Secretary Johnson. Chairman, Senator Carper, I have 
appreciated our very constructive working relationship. I 
appreciate the tone that you have set at these hearings, and I 
appreciate your friendship.
    Chairman Johnson. Director Rasmussen?
    Mr. Rasmussen. The only thing----
    Mr. Comey. You can have more time. [Laughter.]
    Chairman Johnson. Sing our praises.
    Mr. Rasmussen. The only thing I would add, Mr. Chairman, is 
on the Governmental Affairs side of your Committee's hat, I 
think you would be pleased, I think as Senator Carper said, 
with how well and how closely our organizations are working 
together. As many of you know, NCTC is an organization that 
relies on contributions from other organizations. Our 
lifeblood, in addition to our permanent employees, is found in 
the contributions of other organizations. And just a couple of 
weeks ago, I had the opportunity to host Director Comey as he 
spoke to 60 or so FBI detailees assigned to NCTC who are doing 
terrific work on behalf of us all.
    So just to say there is always room for improvement in the 
way we work together, we are constantly striving to get better 
at what we do, but I am tremendously proud of my workforce, but 
also the workforces that I get support from at DHS and FBI.
    Chairman Johnson. Thank you, Director. We talked earlier 
about the cooperation between your agencies and State and local 
governments as well, and I am sure Senator Baldwin would agree 
with me. As I talk to individuals in Wisconsin tasked with your 
mission, keeping Wisconsin but also this Nation safe, they also 
are very pleased with the cooperation. So we are moving in the 
right direction, and that is kind of good news. So I appreciate 
that.
    Again, I want to thank you for your service to this Nation, 
all three of you. I think America is incredibly fortunate to 
have men of your caliber and of your dedication and of your 
integrity serving in your capacity. I realize this is not a 9-
to-5 job 5 days a week. This is 24/7/365 days a year, and all 
three of you are working hard to keep this Nation safe. So, 
truly, I think I speak for all of us when I thank you for your 
patriotism and for your service to this Nation.
    Senator Carper. I am Tom Carper, and I approve this 
message. [Laughter.]
    Chairman Johnson. Again, there is an awful lot we agree on, 
and we are trying to find those areas that unify us.
    So this hearing record will remain open for 15 days until 
October 23 at 5 p.m.--so you have some time, Senator Baldwin.
    Senator Baldwin. Thank you.
    Chairman Johnson [continuing]. For submission of statements 
and questions for the record. This hearing is adjourned. Thank 
you all.
    [Whereupon, at 12 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
